r•
£

,, ^

No. 20-3525

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SAMUEL RIDDER,
Petitioner-Appellant,
v.
TIM SHOOP, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Oct 16, 2020

DEBORAH S. HUNT, Clerk

ORDER

Before: BUSH, Circuit Judge.
Samuel Ridder, an Ohio prisoner proceeding pro se, appeals the district court’s judgment
denying his 28 U.S.C. § 2254 habeas corpus petition.

Ridder moves for a certificate of

appealability (COA) and for leave to proceed in forma pauperis. See Fed. R. App. P. 22(b)(2).
A jury found Ridder guilty of four counts of rape, in violation of Ohio Revised Code
§ 2907.02(A)(1)(b), and one count of gross sexual imposition (GSI), in violation of
§ 2907.05(A)(4). See State v. Ridder, No. C-150460, 2016 WL 4140851, at *1-2 (Ohio Ct. App.
Aug. 3, 2016). Ridder was living with a woman and her minor daughter, S.W., and on several
occasions engaged in sexual acts involving the child. Id. at *1. After S.W. and her mother moved
out of the residence and into a domestic-violence shelter, S.W. disclosed the incidents to her
mother, the mother took S.W. to a family center in Columbus for examination and treatment, and
S.W. was interviewed by Jennifer Westgate, a licensed social worker. Id. This interview was
video recorded, and the recording was introduced as evidence at Ridder’s trial. Ridder was
sentenced to life in prison without parole for each of the four rape counts and to eighteen months
in prison for the GSI count.
On direct appeal, Ridder argued that: l)he was denied a fair trial by the trial court’s
admission of alleged hearsay statements in S.W.’s videotaped interview; 2) die prosecutor was
APPENDIX A

i

H'kCEUVED

JUL - 8 im
OFFICE OF THE CLERK
SUPREME COURT i iq

A

>

•

No. 20-3525
-2-

pennitted to make improper remarks to the jury, prejudicing his case; 3) he was denied effective
assistance of trial counsel; 4) the evidence was insufficient to support his convictions; and 5) the
trial court erred in failing to comply with Ohio’s statutory sentencing procedure, resulting in
excessive prison terms. The state appellate court affirmed Ridder’s convictions and sentence, id.
at *6, and the Ohio Supreme Court declined to review the appellate court’s decision. State v.
Ridder, 67 N.E.3d 824 (Ohio 2017) (table).
Ridder attempted to file a motion to reopen his direct appeal under Ohio Rule of Appellate
Procedure 26(B), but the Ohio Court of Appeals declined to review it because the application was
untimely, and Ridder had failed to establish good cause for the delay. The Ohio Supreme Court
declined to accept Ridder’s untimely appeal of that decision.
In his § 2254 habeas petition, Ridder claimed that: 1) the trial court erred in admitting the
alleged hearsay statements by S.W. through Westgate’s testimony; 2) the trial court erred by
permitting the prosecutor to make improper remarks; 3) he was denied effective assistance of trial
counsel by counsel’s failure to object to the interview video, object to the prosecutor’s remarks,
and move for acquittal; 4) the evidence was insufficient to support his convictions; 5) the trial
court failed to make the requisite findings under state law before imposing his sentence; and 6) his
appellate counsel rendered ineffective assistance when he failed to properly challenge the venue,
the hearsay evidence, and the prosecutor’s remarks at trial. The matter was referred to a magistrate
judge, who recommended denying the petition. The district court considered Ridder’s objections,
adopted the recommendation, and denied the petition and a COA.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

To satisfy this standard, a petitioner must

demonstrate “that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). Habeas
corpus relief may be granted on claims that were adjudicated on the merits in state court only if
the state-court adjudication was “contrary to, or involved an unreasonable application of, clearly

p
2- •

No. 20-3525
-3-

established federal law” or the state-court adjudication “was based on an unreasonable
determination of the facts.” 28 U.S.C. § 2254(d). When the district court denies a habeas petition
on a procedural ground without reaching the underlying constitutional claims, a COA should issue
when the petitioner demonstrates “that jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Slack v. McDaniel, 529
U.S.473,484 (2000).
Ridder’s application for a COA challenges the district court’s resolution of his claims
regarding appellate counsel’s allegedly deficient performance, the trial judge’s alleged bias, his
trial counsel’s alleged ineffective assistance, and the alleged hearsay statements by S.W. Ridder
forfeited his claim regarding alleged bias of the trial judge by raising it for the first time in his
objections to the magistrate judge’s report. See Murr v. United States. 200 F.3d 895, 902 n.l (6th
Cir. 2000). By failing to raise any challenge to the district court’s resolution of his claims
regarding prosecutorial misconduct, insufficiency of the evidence, and improper sentencing, he
has forfeited those claims. See Jackson v. United States, 45 F. App’x 382, 385 (6th Cir. 2002) (per
curiam).
S.W.’s Statements as Inadmissible Hearsay
Ridder claims that S.W.’s statements in the videotaped interview were inadmissible
hearsay and violated his right to due process at trial. Finding that Ridder had failed to object to
the admission of the videotape, the state appellate court reviewed the claim for plain error review.
Ridder, 2016 WL 4140851, at *2. The state court found that S.W.’s statements were admissible
under Ohio Rule of Evidence 803(4) because they were made during her interview with Westgate
at the treatment center for purposes of medical diagnosis or treatment. The court concluded that
the trial court did not commit plain error in allowing the evidence.
The district court concluded that Ridder procedurally defaulted the claim because, by
reviewing it for plain error, the state court had applied its contemporaneous-objection rule, which
is an “independent and adequate” state-law ground barring federal habeas review of a claim. See

No. 20-3525
-4Williams v. Bagley, 380 F.3d 932,968-69 (6th Cir. 2004). The district court also found that Ridder
failed to show cause for his default or resulting prejudice.
Federal habeas courts typically may not review a procedurally defaulted claim. See
28 U.S.C. § 2254(b)(1)(A); Martin v. Mitchell, 280 F.3d 594, 603 (6th Cir. 2002). A prisoner
procedurally defaults a claim by not seeking consideration of it in state court while he still had
state-court remedies available. See Lundgren v. Mitchell, 440 F.3d 754, 763 (6th Cir. 2006).
Generally, this court has outlined a four-part test to determine whether a defendant procedurally
defaulted a claim in state court. Maupin v. Smith, 785 F.2d 135, 138 (6th Cir. 1986). First, the
court must determine whether a state procedural rule applies to the petitioner’s claim and whether
the petitioner failed to comply with that rule. Id. Second, this court determines whether the state
courts actually enforced the procedural sanction. Id. Third, the procedural rule must be an
adequate and independent ground on which the state can rely to foreclose review of a federal
constitutional claim. Id. Fourth, a defaulted claim cannot be considered unless the petitioner
shows “cause for the default and actual prejudice as a result of the alleged violation of federal law,
or demonstrate^] that failure to consider the claims will result in a fundamental miscarriage of
justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991). A fundamental miscarriage of justice
requires a showing of actual innocence. See Dretke v. Haley, 541 U.S. 386, 393 (2004).
Here, reasonable jurists would not debate the district court’s determination that Ridder
defaulted any constitutional claim related to the alleged hearsay statements, because the state court
enforced the contemporaneous-objection rule by reviewing the claim for plain error only. See
Williams, 380 F.3d at 968-69. Ridder argued that ineffective assistance of counsel was sufficient
cause to excuse his default but, as explained below, trial counsel refrained from objecting to the
videotaped interview because it was a part of a reasonable trial strategy for the jurors to hear a few
of S.W.’s answers to Westgate’s questions and also to hear Westgate’s statement that she believed
the events occurred in Kentucky rather than in Ohio, where he was charged. See Ridder, 2016 WL
4140851, at *4. Nor could Ridder establish prejudice from counsel’s failure to object because it
is likely that the trial court would have admitted the videotape as an exception to the hearsay rule,

>

•

No. 20-3525
-5-

as determined by the state court of appeals. Finally, Ridder presented nothing to meet his burden
of showing that he was actually innocent. Jurists of reason would not debate that the district court’s
procedural ruling was correct. See Slack, 529 U.S. at 484.
Ineffective Assistance of Trial Counsel
Applying Strickland v. Washington, 466 U.S. 668 (1984), the state appellate court rejected
Ridder’s ineffective-assistance-of-trial-counsel claims on the merits.

See Ridder, 2016

WL4140851, at *4. To succeed on an ineffective-assistance claim, a petitioner must show both
that counsel’s performance fell below an objective standard of reasonableness and that “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694; see also Williams v. Anderson, 460 F.3d
789, 800 (6th Cir. 2006). In habeas proceedings, the district court must apply a doubly deferential
standard of review: “[T]he question [under § 2254(d)] is not whether counsel’s actions were
reasonable. The question is whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.” Harrington v. Richter, 562 U.S. 86, 105 (2011).
Reasonable jurists would not debate the district court’s rejection of Ridder’s ineffectiveassistance claims under that deferential standard. Counsel relied on the videotaped interview in
his attempt to convince the jury that venue was improper based on Westgate’s statement that the
events may have occurred in Kentucky. Counsel also relied on certain responses by S.W. to
support his argument that S.W. was being “coached” by her mother to answer Westgate’s questions
in a manner unfavorable to Ridder. The state appellate court concluded that trial counsel utilized
reasonable trial strategy in not objecting to the video because it supported what was “likely the
best argument for [Ridder’s] acquittal based on the evidence presented by the state.” Ridder, 2016
WL 4140851, at *4.
The state appeals court also rejected Ridder’s claim that counsel was ineffective for failing
to object to certain remarks by the prosecutor, because it perceived “value, from a trial-strategy
perspective, [in] not objecting to every de minimis violation during the course of a trial.” Id. The
state appellate court further determined that none of the prosecutor’s remarks were “improper”

>

'

No. 20-3525
-6-

with the exception of a few leading questions in a 1200-page trial transcript that “did not affect the
outcome of the trial.” Id., at *3. In his COA application, Ridder fails to specify which comments
and remarks the state court or the district court failed to consider in reaching its determination. In
these circumstances, reasonable jurists would not debate the district court’s conclusion that there
is at least a reasonable argument that counsel satisfied Strickland's deferential standard.
Harrington, 562 U.S. at 105.
Ineffective Assistance of Appellate Counsel
The district court determined that Ridder had defaulted his claims of ineffective assistance
of appellate counsel because the motion to reopen in which he attempted to raise these claims was
rejected as untimely. Under Ohio law, claims of ineffective assistance of appellate counsel must
be raised in an application to reopen an appeal under Ohio Rule of Appellate Procedure 26(B).
See Carter v. Mitchell, 693 F.3d 555, 564 (6th Cir. 2012). As noted above, the Ohio Court of
Appeals rejected Ridder’s Rule 26(B) motion as untimely, and this was an adequate and
independent state ground for a procedural default. See Parker v. Bagley, 543 F.3d 859, 862 (6th
Cir. 2008). Reasonable jurists could not debate the district court’s conclusion that this claim was
procedurally defaulted.
As cause for his default, Ridder argued that prison officials obstructed his access to the
courts by interfering with the prison’s mailing process and that his second default for failing to
timely file an appeal to the Ohio Supreme Court was because he did not receive the state appellate
court’s decision until six months after it was issued. Even assuming that Ridder established good
cause for the delay in filing his Rule 26(B) motion, he failed to establish actual prejudice because
appellate counsel was not ineffective for failing to raise the claims that, for the reasons stated above
and in the state appellate court’s decision, were meritless. Coleman, 501 U.S. at 750; Shaneberger
v. Jones, 615 F.3d 448, 452 (6th Cir. 2010). Finally, Ridder failed to show a fundamental
miscarriage ofjustice to excuse his default by presenting evidence of actual innocence. See Dretke,
541 U.S. at 393. Reasonable jurists would not debate that the district court’s procedural ruling
regarding these ineffective assistance claims is correct. See Slack, 529 U.S. at 484.

V

.2

No. 20-3525
-7-

Based on the above, the court DENIES Ridder’s application for a COA and DENIES as
moot his motion to proceed in forma pauperis.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX F
* •. Case: l:18-cv-00061-MWM-SKB Doc #: 18 Filed: 05/01/20 Page: 1 of 2 PAGEID #: 1525

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION - CINCINNATI
SAMUEL RIDDER,
Petitioner,

Case No. l:18-cv-61
Judge Matthew W. McFarland

vs.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent

ORDER OVERRULING OBJECTIONS (DOC. 16), ADOPTING REPORT AND
RECOMMENDATIONS (DOC. 12), AND TERMINATING CASE
This habeas corpus action is before the Court on Petitioner Samuel Ridder's
Objections (Doc. 16) to Magistrate Judge Stephanie K. Bowman's Report and
Recommendations (Doc. 12). After review of the Petition for Writ of Habeas Corpus (the
"Petition") (Doc. 1), Respondent's return of writ (Doc. 9), and Petitioner's Reply (Doc. 11),
Magistrate Judge Bowman recommended that the Court deny the Petition with prejudice.
Petitioner moved for an extension of time to file objections to the Report and
Recommendations on May 21, 2019 and then filed provisional objections (Doc. 14) on
June 3, 2019 that included a request to file amended objections if his motion for an
extension of time were granted. On the same day the provisional objections were filed,
the Court granted Petitioner's extension of time. (Doc. 15.) Petitioner timely filed his
amended Objections (Doc. 16) on July 22, 2019. This matter is therefore ripe for review.
As required by 28 U.S.C. § 636(b) and Federal Rule of Civil Procedure 72(b), the

APPENDIX B

y

'

Case: l:18-cv-00061-MWM-SKB Doc #: 18 Filed: 05/01/20 Page: 2 of 2 PAGEID #: 1526

Court has made a de novo review of the record in this case. Upon said review, the Court
finds that Petitioner's Objections (Doc. 16) are not well-taken and are accordingly
OVERRULED. The Court ADOPTS the Report and Recommendations (Doc. 12) in its
entirety and rules as follows:
1.

Petitioner's Petition for Writ of Habeas Corpus pursuant to 28 U.S.C.
§ 2254 (Doc. 1) is DENIED with prejudice.

2.

A certificate of appealability is DENIED with respect to the claims
alleged in the Petition, which the Court has concluded are waived
and procedurally barred from review, because under the first prong
of the applicable two-part standard enunciated in Slack v. McDaniel,
529 U.S. 473, 484-85 (2000), "jurists of reason" would not find it
debatable whether this Court is correct in its procedural ruling.
A certificate of appealability is DENIED with respect to the claims
alleged in the Petition, which have been addressed on the merits,
because Petitioner has not stated a "viable claim of the denial of a
constitutional right," nor are the issues presented "adequate to
deserve encouragement to proceed further." See Slack, 529 U.S. at
475. See also 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b).

3.

With respect to any application by Petitioner to proceed on appeal in
forma pauperis, the Court hereby CERTIFIES pursuant to 28 U.S.C. g
1915(a)(3) that an appeal of this Order adopting the Magistrate
Judge's Report and Recommendation would not be taken in "good
faith," and therefore DENIES Petitioner leave to appeal in forma
pauperis upon a showing of financial necessity. See Fed. R. App. P.
24(a); Kincade v. Sparkman, 117 F.3d 949, 952 (6th Cir. 1997).

IT IS SO ORDERED.
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
By:

/s/Matthew W. McFarland________
JUDGE MATTHEW W. McFARLAND

'j-

. . Case: l:18-cv-00061-MWM-SKB Doc #: 19 Filed: 05/01/20 Page: 1 of 1 PAGEID #: 1527

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION - CINCINNATI
SAMUEL RIDDER,

Case No. l:18-cv-61

Petitioner,

Judge Matthew W. McFarland

vs.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.
JUDGMENT IN A CIVIL CASE

X

Jury Verdict.

This action came before the Court for a trial by jury.
The issues have been tried and the jury has rendered
its verdict.

Decision by Court.

This action came to trial or hearing before the Court.
The issues have been tried or heard and a decision has
been rendered.

IT IS ORDERED AND ADJUDGED: That Petitioner's Petition for Writ of Habeas
Corpus pursuant to 28 U.S.C. § 2254 (Doc. 1) is DENIED with prejudice.
May 1, 2020.
Richard W. Nagel, Clerk of Court
By: /s/Kellie A. Fields
Deputy Clerk

APPENDIX E
./ •. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 1 of 30 PAGEfD #: 1412

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
SAMUEL RIDDER,
Petitioner,
vs.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.

Case No. l:18-cv-61
Barrett, J.
Bowman, M.J.
REPORT AND
RECOMMENDATION

Petitioner, an inmate in state custody at the Chillicothe Correctional Institution, has filed
a pro se petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. (Doc. 1). This matter
is before the Court on the petition, respondent’s return of writ (Doc. 9), and petitioner’s reply
(Doc. 11). For the reasons stated below, the undersigned recommends that the petition be
denied.
I. FACTUAL BACKGROUND
The Ohio Court of Appeals set forth the following set of facts leading to petitioner’s
conviction and sentence: i
Defendant-appellant Samuel Ridder moved in with S.W.’s mother shortly after
S.W. was bom. For the first few years, the three lived in Kentucky with S.W.’s
older brother. Shortly after S.W.’s mother gave birth to another child, the family
moved to Delhi. According to testimony by S.W. at trial, Ridder, on several
occasions, both in her bedroom and his bedroom, had placed his fingers in her
vagina and her anus, licked her privates, made her mb his penis with her hand, and
put his penis in her mouth. S.W.’s mother had been unaware of Ridder’s conduct
at the time of the incidents, which had occurred when S.W. was between four and
five years old.
After a domestic-violence incident, S.W.’s mother took the children and left the
' 28 U.S.C. § 2254(e)(1) provides that “[i]n a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a factual issue made by a State court
shall be presumed correct” unless petitioner rebuts the presumption by “clear and convincing evidence.” Because
petitioner has neither cited nor presented clear and convincing evidence to rebut the Ohio Court of Appeals’ factual
findings quoted herein, the state appellate court’s factual findings are presumed to be correct. See McAdoo v. Elo,
365 F.3d 487,493-94 (6th Cir. 2004).

APPENDIX C

. . Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 2 of 30 PAGEID #: 1413

home. After staying briefly with S.W.’s maternal grandfather, S.W.’s mother took
the children with her to stay in a domestic-violence shelter in Circleville, Ohio.
After staying at the shelter for a few weeks, S.W. disclosed the incidents to her
mother. Her mother took S.W. to the Center for Family Safety and Healing at the
Nationwide Children’s Hospital in Columbus (“Center”). The Center operates
under the same guidelines and protocols as the Mayerson Center for Safe and
Healthy Children at the Cincinnati Children’s Hospital Medical Center (“Mayerson
Center”). S.W. was interviewed by Jennifer Westgate, a licensed social worker.
After the interview, during which she disclosed some of the conduct and indicated
that it had happened “in Kentucky,” S.W. was examined and treated by physicians
with the hospital. Additionally, staff members from the Center contacted ftie Delhi
Police Department.
Detective Joe Macaluso contacted Ridder and asked him to appear for an interview.
In the interview, Ridder denied the allegations. After concluding the interview,
Macaluso released Ridder, but told him that he would likely need to be seen again.
Because Macaluso had surgery during that time, several months passed before he
could contact Ridder. After a couple of failed attempts to coordinate their
schedules, Ridder refused to further cooperate with the police. He was later arrested
and indicted on four counts ofrape, in violation of R.C. 2907.02(A)(1)(b). The first
two rape counts alleged digital penetration of the vaginal or anal cavity, the third
rape count alleged that he had engaged in cunnilingus with S.W., and the fourth
count alleged that he had compelled S.W. to engage in fellatio. He was also charged
with one count of gross sexual imposition (“GSI”), in violation of R.C.
2907.05(A)(4), for forcing S.W. to touch his penis with her hand.
4

At trial, Ridder’s trial counsel pursued two separate theories of the case. Counsel’s
first theory was that her mother had coached S.W. to make the allegations in order
to secure the family’s stay at a domestic violence shelter in Circleville. Counsel’s
second approach to the case involved convincing the jury that the incidents
occurred in Kentucky, based on what S.W. had said in her interview with Westgate.
(Doc. 8, Ex. 8).
II. PROCEDURAL HISTORY
State Trial Proceedings and Direct Appeal
On February 27, 2014, the Hamilton County, Ohio, grand jury returned a five-count
indictment charging petitioner with four counts of rape and one count of gross sexual imposition.
(Doc. 8, Ex. 1). On April 29, 2015, following ajury trial, petitioner was found guilty of all
2

Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 3 of 30 PAGEID #: 1414

charges. (Doc. 8, Ex. 2). Petitioner received a life sentence without the possibility of parole for
each of the rape charges and a concurrent eighteen-month sentence for the gross sexual
imposition conviction. (Doc. 8, Ex. 3).
On July 31, 2015, petitioner, through counsel, filed notice of appeal to the Ohio Court of
Appeals. (Doc. 8, Ex. 5). Petitioner raised the following five assignments of error:
1. The trial court erred as a matter of law by allowing the state to introduce hearsay
statements made by S.W. through her Nationwide Children’s Hospital
interview which violated Ridder’s right to a fair trial.
2. The trial court erred as a matter of law by permitting the prosecutor to make
improper remarks to the jury thus prejudicing Ridder’s rights to a fair trial.
3. Ridder was denied effective assistance of counsel in violation of his
constitutional rights thus prejudicing his right to a fair trial.
4. The evidence was insufficient as a matter of law and/or against the manifest
weight of the evidence to sustain Ridder’s convictions.
5. The trial court erred to Ridder’s prejudice by imposing an excessive consecutive
prison term without making the requisite Ohio statutory sentencing findings
under Ohio Revised Code § 2929.14(c)(4), § 2953.08(g), § 2929.11 and §
2929.12.
(Doc. 8, Ex. 6). On August 3, 2016, the Ohio appeals court overruled petitioner’s assignments of
error and affirmed the judgment of the trial court. (Doc. 8, Ex. 8).
Ohio Supreme Court
On September 16, 2016, petitioner filed a pro se notice of appeal to the Ohio Supreme
Court. (Doc. 8, Ex. 9). In his memorandum in support ofjurisdiction, petitioner raised the same
five issues raised as assignments of error on direct appeal. (See Doc. 8, Ex. 10). On January 25,
2017, the Ohio Supreme Court declined jurisdiction of the appeal. (Doc. 8, Ex. 11).

3

‘ . Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 4 of 30 PAGEID #: 1415

Application to Reopen Appeal
Meanwhile, on November 4, 2016, petitioner filed a motion for an extension of time to
file an application to reopen his direct appeal pursuant to Ohio App. R. 26(B). (Doc. 8, Ex. 12).
On the same date, petitioner filed a 26(B) application, arguing that his appellate counsel was
ineffective for failing to raise the following four issues on direct appeal:
1. Appellant’s due process right to effective assistance of counsel was violated
when appellant counsel failed to properly argue appellant’s due process and
equal protection rights under the Fourteenth Amendment of The United States
Constitution which prohibits the inclusion of other crimes in another venue
without proper jurisdiction.
2. Appellant’s due process right to effective assistance of counsel was violated
when appellant counsel failed to thoroughly argue appellant’s hearsay
challenges which constitute violation of state and federal due process rights.
3.

Appellant’s due process right to effective assistance of counsel was violated
when appellant counsel failed to properly argue prosecutorial misconduct by
leading the witness which constituted violations of state and federal due process
rights.

4. Appellant’s due process right to effective assistance of counsel was violated
when appellant counsel failed to demonstrate why a Rule 29 motion and/or
motion for mistrial would have been granted had trial counsel motioned to
court.
(Doc. 8, Ex. 13). On January 13, 2017, the Ohio Court of Appeals found that petitioner failed to
demonstrate good cause for his delay in filing the application and denied petitioner’s application
as untimely. (Doc. 8, Ex. 18).
Petitioner did not file an appeal to the Ohio Supreme Court from the Court of Appeals
decision.2

2 As discussed below, it appears from documents attached to petitioner’s reply, that petitioner unsuccessfully
attempted to file a delayed appeal from the Ohio Court of Appeals’ decision to the Ohio Supreme Court. {See Doc.
11 at PagelD 1403). Petitioner also unsuccessfully moved the Ohio Supreme Court to disqualify the trial court

4

/ .. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 5 of 30 PAGEID #: 1416

Federal Habeas Corpus
On January 29, 2018, petitioner commenced the instant federal habeas corpus action.
(Doc. 1). Petitioner raises the following six grounds for relief in the petition:
GROUND ONE: The trial court erred as a matter of law by allowing the state to
introduce hearsay statements made by S.W. through her Nationwide Children’s
Hospital interview which violated Ridder’s right to a fair trial.
Supporting Facts: State introduced child interview video regarding S.W. through
Ms. Westgate’s testimony.
GROUND TWO: The trial court erred as a matter of law by permitting the
prosecutor to make improper remarks to the jury thus prejudicing Ridder’s rights
to a fair trial.
Supporting Facts: Prosecutor continually asked leading questions putting its desired
testimony into the mouths of State’s witnesses. Prosecutor testified through
purported questioning and added facts not in the record in addition to vouching for
State’s witnesses and misstating facts in closing arguments.
GROUND THREE: Ridder was denied effective assistance of counsel in violation
of his constitutional rights thus prejudicing his right to a fair trial.
Supporting Facts: Trial counsel failed to make any Rule 29 motion for acquittal.
Trial counsel failed to object to the Nationwide Children’s Hospital interview video
introduced through Ms. Westgate’s testimony. Trial counsel failed to object to
many instances of prosecutor misconduct of questioning and added facts not in the
record in addition to vouching for State’s witnesses and misstating facts in closing
arguments.
GROUND FOUR: The evidence was insufficient as a matter of law to sustain
petitioner’s convictions
Supporting Facts: Evidence was materially influenced by prosecution misconduct.
Absolutely no physical evidence of sexual acts by petitioner. Testimony of S.W.
was inconclusive and inconsistent with itself, the Nationwide Children’s Hospital
interview video and testimonies of other witnesses which were influenced by
prosecutor misconduct.

judge from presiding over any further proceedings in his case. (See Doc. 8, Ex. 21).

5

1 . Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 6 of 30 PAGEID #: 1417

GROUND FIVE: The trial court erred to Ridder’s prejudice by imposing an
excessive prison term without making the requisite Ohio statutory findings under
Ohio Revised Code 2929.14(c)(4), 2953.08(g), 2929.11 and 2929.12
Supporting Facts: Court failed to make required statutory findings which resulted
in excessive prison terms.
GROUND SIX: Appellate counsel was ineffective for failing to present issues as
well as issues not fully considered that should have been that prove unreliable
process was used to obtain a wrongful criminal conviction prejudicing appellate.
Supporting Facts: Appellate counsel failed to properly and thoroughly argue venue.
Appellate counsel failed to properly and thoroughly argue hearsay challenges.
Appellate counsel failed to properly and thoroughly demonstrate in detail, using
key testimony, the consistent prosecution misconduct that materially influenced the
trial.
(Doc. 1 at PagelD 5-9).
Respondent has filed a return of writ in opposition to the petition. (Doc. 9). According
to respondent, petitioner’s grounds for relief are procedurally defaulted and/or without merit.
Petitioner has filed a reply to the return of writ. (Doc. 11).
III. THE PETITION SHOULD BE DENIED.
. In this federal habeas case, the applicable standard of review governing the adjudication
of constitutional issues raised by petitioner to the state courts is set forth in 28 U.S.C. § 2254(d).
Under that provision, a writ of habeas corpus may not issue with respect to any claim adjudicated
on the merits by the state courts unless the adjudication either:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the United States
Supreme Court; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the state court proceeding.
28 U.S.C. § 2254(d).
6

. •. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 7 of 30 PAGEID #: 1418

“A decision is ‘contrary to’ clearly established federal law when ‘the state court arrives at
a conclusion opposite to that reached by [the Supreme] Court on a question of law or if the state
court decides a case differently than [the Supreme] Court has on a set of materially
indistinguishable facts.” Otte v. Houk, 654 F.3d 594, 599 (6th Cir. 2011) (quoting Williams v.
Taylor, 529 U.S. 362, 412-13 (2000)), cert, denied, 132 S.Ct. 1743 (2012). “A state court’s
adjudication only results in an ‘unreasonable application’ of clearly established federal law when
‘the state court identifies the correct governing legal principle from [the Supreme] Court’s
decisions but unreasonably applies that principle to the facts of the prisoner’s case.’” Id. at 599600 (quoting Williams, 529 U.S. at 413).
The statutory standard, established when the Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA) was enacted, is a difficult one for habeas petitioners to meet. Id. at 600.
As the Sixth Circuit explained in Otte:
Indeed, the Supreme Court has been increasingly vigorous in enforcing AEDPA’s
standards. See, e.g., Cullen v. Pinholster,_U.S.__ , 131 S.Ct. 1388, 1398, 179
L.Ed.2d 557 (2011) (holding that AEDPA'limits a federal habeas court to the record
before the state court where a claim has been adjudicated on the merits by the state
court). It is not enough for us to determine that the state court’s determination is
incorrect, to grant the writ under this clause, we must hold that the state court’s/
determination is unreasonable: . . . This is a “substantially higher threshold.”. . .
To warrant AEDPA deference, a state court’s “decision on the merits” does not
have to give any explanation for its results, Harrington v. Richter,_U.S.__,131
S.Ct. 770, 784, 178 L.Ed.2d 624 (2011), nor does it need to cite the relevant
Supreme Court cases, as long as “neither the reasoning nor the^resulTof the statecourt decision contradicts them.” Early v. Packer, 537 U.S. 3, 8, 123 S.Ct. 362,
154 L.Ed.2d 263 (2002) (per curiam).
Id. (emphasis in original). The Supreme Court recently extended its ruling in Harrington to hold
that when a state court rules against a defendant in an opinion that “addresses some issues but
does not expressly address the federal claim in question,” the federal habeas court must presume,
7

*. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 8 of 30 PAGEID #: 1419

subject to rebuttal, that the federal claim was “adjudicated on the merits” and thus subject to the
“restrictive standard of review” set out in § 2254(d). See Johnson v. Williams, _ U.S.

133

S.Ct. 1088, 1091 (2013).
Although the standard is difficult to meet, § 2254(d) “stops short of imposing a complete
bar on federal court relitigation of claims already rejected in state proceedings” and “preserves
authority to issue the writ in cases where there is no possibility fairminded jurists could disagree
that the state court’s decision conflicts with [Supreme Court] precedents.” Harrington, 131 S.Ct.
at 786. In other words, to obtain federal habeas relief under that provision, the state prisoner
must show that the state court ruling on the claim presented “was so lacking in justification that
there was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Id. at 786-87.
The Supreme Court has made it clear that in assessing the merits of a constitutional claim
under § 2254(d), the federal habeas court must apply the Supreme Court precedents that
controlled at the time of the last state-court adjudication on the merits, as opposed to when the
conviction became “final.” Greene v. Fisher, 565 U.S. 34, 38^10, (2011); cf. Otte, 654 F.3d at
600 (citing Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003)) (in evaluating the merits of a claim
addressed by the state courts, the federal habeas court must “look to Supreme Court cases
already decided at the time the state court made its decision”). In Greene, 132 U.S. at 44, the
Court explained:
[W]e held last term in Cullen v. Pinholster, 563 U.S._, 131 S.Ct. 1388,179 L.Ed.2d
557 (2011), that review under § 2254(d)(1) is limited to the record that was before
the state court that adjudicated the prisoner’s claim on the merits. We said that the
provision’s “backward-looking language requires an examination of the state-court
decision at the time it was made.” Id., at
131 S.Ct. at 1398. The reasoning of
8

/ •. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 9 of 30 PAGEID #: 1420

Cullen determines the result here. As we explained, § 2254(d)(1) requires federal
courts to “focu[s] on what a state court knew and did,” and to measure state-court
decisions as of ‘the time the state court renders its decision.'’'’' Id., at_, 131 S.Ct.
at 1399 (quoting Lockyer v. Andrade, 538 U.S. [at] 71-72 ..emphasis added).
Decisions by lower courts are relevant “to the extent [they] already reviewed and
interpreted the relevant Supreme Court case law to determine whether a legal principle or right
had been clearly established by the Supreme Court.” Otte, 654 F.3d at 600 (quoting Landrum v.
Mitchell, 625 F.3d 905, 914 (6th Cir. 2010)). The writ may issue only if the application of
clearly-established federal law is objectively unreasonable “in light of the holdings, as opposed
to the dicta, of the Supreme Court’s decisions as of the time of the relevant state court decision.”
McGhee v. Yukins, 229 F.3d 506, 510 (6th Cir. 2000) (citing Williams, 529 U.S. at 412).
A. Grounds One and Two are procedurally defaulted and waived.
In Ground One of the petition, petitioner contends that the trial court erred by permitting
hearsay statements through the victim’s hospital interview. In Ground Two, he claims that the
prosecution made improper remarks to the jury. Petitioner contends these alleged errors
deprived him of his right to a fair trial.3 (See Doc. 1 at PagelD 14, 15).
In recognition of the equal obligation of the state courts to protect the constitutional rights
of criminal defendants, and in order to prevent needless friction between the state and federal
courts, a state defendant with federal constitutional claims must fairly present those claims to the
state courts for consideration before raising them in a federal habeas corpus action. See 28

3 Because the federal habeas court only has jurisdiction to consider whether petitioner’s confinement violates the
Constitution, laws or treaties of the United States, petitioner is unable to prevail on any claim of error under the
Ohio Rules of Evidence or Ohio law. See 28 U.S.C. § 2254(a); Pulley v. Harris, 465 U.S. 37, 41 (1984); see also
Estelle v. McGuire, 502 U.S. 62,67-68 (1991) (“it is not the province of a federal court to reexamine state-court
determinations on state-law questions”).

9

/ . Case: l:18-cv-00061-MRB-SKB Doc #; 12 Filed: 05/14/19 Page: 10 of 30 PAGEID #: 1421

U.S.C. § 2254(b)(1), (c); see also Anderson, 459 U.S. at 6; Picard v. Connor, 404 U.S. 270, 27576 (1971). A constitutional claim for relief must be presented to the state’s highest court in order
to satisfy the fair presentation requirement. See O’Sullivan v. Boerckel, 526 U.S. 838, 845, 848
(1999); Hajley v. Sowders, 902 F.2d 480, 483 (6th Cir. 1990); Leroy v. Marshall, 757 F.2d 94,
97, 99-100 (6th Cir. 1985). If the petitioner fails to fairly present his constitutional claims
through the requisite levels of state appellate review to the state’s highest court or commits some
other procedural default that prevents a merit-based review of the federal claims by the state’s
highest court, he may have waived the claims for purposes of federal habeas review. See
O 'Sullivan, 526 U.S. at 847-48; Harris v. Reed, 489 U.S. 255, 260-62 (1989); McBee v. Grant,
763 F.2d 811, 813 (6th Cir. 1985); see also Weaver v, Foltz, 888 F.2d 1097, 1099 (6th Cir.
1989).
It is well-settled under the procedural default doctrine that the default of a federal claim
in the state court may preclude federal habeas review if the state court judgment rests on a statelaw ground that is both “independent” of the merits of the federal claim and an “adequate” basis
for the state court’s decision. See Harris, 489 U.S. at 260-62. The Supreme Court has stated:
In all cases in which a state prisoner has defaulted his federal claims in state court
pursuant to an independent and adequate state procedural rule, federal habeas
review of the claims is barred unless the prisoner can demonstrate cause for the
default, and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.
Coleman v. Thompson, 501 U.S. 722, 750 (1991). Such a default may occur if the state prisoner
fails to comply with a state procedural rule that required him to have done something at trial to

10

/ -pase: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 11 of 30 PAGEID #: 1422

preserve the issue for appellate review. United States v. Frady, 456 U.S. 152, 167-69 (1982),
Simpson v. Sparkman, 94 F.3d 199, 202 (6th Cir. 1996).
The Sixth Circuit applies a four-part test to determine if a claim is procedurally defaulted:
(1) the court must determine that there is a state procedural rule that is applicable
to the petitioner’s claim and that the petitioner failed to comply with the rule; (2)
the court must determine whether the state courts actually enforced the state
procedural sanction; (3) it must be decided whether the state procedural forfeiture
is an adequate and independent state ground upon which the state can rely to
foreclose review of a federal constitutional claim; and (4) if the court has
determined that a state procedural rule was not complied with and that the rule was
an adequate and independent state ground, then the petitioner is required to
demonstrate that there was cause for him not to follow the procedural rule and that
he was actually prejudiced by the alleged constitutional error.
Buell v. Mitchell, 274 F.3d 337, 348 (6th Cir. 2001) (citing Maupin v. Smith, 785 F.2d 135, 138
(6th Cir. 1986)).
In the usual case, the adequate and independent state ground doctrine will not apply to
bar consideration of a federal claim on habeas corpus review unless the last state court rendering
a judgment in the case “clearly and expressly” states that its judgment rests on a state procedural
bar. Harris, 489 U.S. at 263; see also Simpson v. Jones, 238 F.3d 399, 406 (6th Cir. 2000).4 In
cases where the last state court to render a reasoned opinion explicitly relies on a procedural bar,
the court will presume that a later unexplained order did not silently disregard the procedural
default and consider the merits of the claim. Ylst v. Nunnemaker, 501 U.S. 797, 803-04 (1991).

4 In Harris, the Supreme Court noted that the rule requiring that the state court plainly state that its judgment rests
on a state procedural default “applies only when a state court has been presented with the federal claim” raised by
the state prisoner as a ground for federal habeas relief. Harris, 489 U.S. at 263 n.9; see also Teague v. Lane, 489
U.S. 288, 299(1989) (plurality opinion) (“The rule announced m Harris. .. assumes that a state court has had the
opportunity to address a claim that is later raised in a federal habeas proceeding.”). The Hams Court further noted.
“Of course, a federal habeas court need not require that a federal claim be presented to a state court if it is clear that
the state court would hold the claim procedurally barred.” Harris, 489 U.S. at 263 n.9.

11

. ■, Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 12 of 30 PAGEID #: 1423

In addition, the rule precluding federal habeas corpus review of claims rejected by the
state courts on state procedural grounds applies only in cases where the state rule relied on by the
courts is deemed “adequate” or, in other words, involves a “firmly established and regularly
followed state practice” at the time that it was applied. Ford v. Georgia, 49B U.S. 411, 423-24
(1991); Richey v. Mitchell, 395 F.3d 660, 679 (6th Cir.) (citing White v. Schotten, 201 F.3d 743,
751 (6th Cir. 2000)), rev’don other grounds, 546 U.S. 74 (2005) (per curiam); Warner v. United
States, 975 F.2d 1207, 1213 (6th Cir. 1992); see also Rideau v. Russell, 342 F. App’x 998, 1002
(6th Cir. 2009). To be considered regularly followed, a procedural rule need not be applied in
every relevant case, but rather “[i]n the vast majority of cases.” Dugger v. Adams, 489 U.S. 401,
410 n.6 (1989); see also Byrdv. Collins, 209 F.3d 486, 521 (6th Cir. 2000).
Finally, the state court’s adequate and independent finding of procedural default will
preclude habeas corpus review of the petitioner’s federal claims unless the petitioner can show
cause for the default and “actual prejudice” as a result of the alleged violations of federal law,
or that failure to consider the federal claims will result in a “fundamental miscarriage ofjustice.”
Coleman, 501 U.S. at 750; Harris, 489 U.S. at 262; see also Murray v. Carrier, All U.S. 478,
485 (1986); Engle v. Isaac, 456 U.S. 107,129 (1982); Wainwright v. Sykes, 433 U.S. 72, 87
(1977).
In this case, petitioner committed a procedural default of the claims asserted in Grounds
One and Two by failing to object to the alleged errors at trial. Ohio’s contemporaneous
objection rule is a firmly-established, adequate and independent state procedural rule, which
serves to foreclose federal habeas review when relied on by the state courts as a basis for
denying relief. See, e.g., Goodwin v. Johnson, 632 F.3d 301, 315 (6th Cir. 2011) (citing Hinkle
12

'. Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 13 of 30 PAGEID#: 1424

v. Randle, 271 F.3d 239, 244 (6th Cir. 2001)); White v. Mitchell, 431 F.3d 517, 525 (6th Cir.
2005); see also State v. Murphy, 747 N.E.2d 765, 788 (Ohio 2001) (noting that Ohio’s "waiver
rule," which "requires that a party make a contemporaneous objection to alleged trial error m
order to preserve that error for appellate review," is "of long standing" and "goes to the heart of
the adversary system ofjustice"). The Sixth Circuit has repeatedly held that "plain error" review
by the state appellate court "constitutes enforcement of Ohio's contemporaneous objection rule.”
See Williams v. Bagley, 380 F.3d 932, 968-69 (6th Cir. 2004) (and Sixth Circuit cases cited
therein); see also Goodwin, 632 F,3d at 315.
The Ohio Court of Appeals clearly enforced the state procedural bar by reviewing
petitioner's assignment of error under plain error analysis. (See Doc. 8, Ex. 8 at PagelD 103106). As such, the state appellate court's plain-error review did not constitute a waiver of the
state procedural default rules. Seymour v. Weaver, 224 F.3d 542, 557 (6th Cir. 2000); see also
Goodwin, 632 F.3d at 315. The Ohio Supreme Court's later unexplained entry denying
petitioner leave to appeal and summarily dismissing the appeal "as not involving any substantial
constitutional question" must be presumed to rely on the same state procedural ground. See Ylst,
501 U.S. at 803. See also Abshear v. Moore, 354 F. App'x 964, 970 (6th Cir. 2009); Knuckles v.
Brigano, 70 F. App'x 830, 840 (6th Cir. 2003).
Therefore, the claims alleged in Ground One and Two of the petition are barred from
review in this proceeding unless petitioner can demonstrate cause for and prejudice from his
procedural default or that a fundamental miscarriage ofjustice will occur if the ground for relief
is not considered on the merits by this Court. See, e.g, Coleman, 501 U.S. at 750; Harris, 489
U.S. at 262; Murray, 477 U.S. at 485.
13

. Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 14 of 30 PAGEID #: 1425

Petitioner has argued in Ground Three of the petition that his trial counsel was ineffective
for failing to object to, amongst other alleged errors, the errors alleged in Grounds One and Two.
However, as discussed below, because petitioner's ineffective assistance of counsel claims are
without merit, they do not serve as cause to excuse petitioner's defaults. Davie v. Mitchell, 547
F.3d 297, 312 (6th Cir. 2008) ("if the underlying substantive claims have no merit, the applicant
cannot demonstrate that counsel was ineffective for failing to raise those claims on appeal.”);
Willis v. Smith, 351 F.3d 741, 745 (6th Cir. 2003) ("appellate counsel cannot be ineffective for
failure to raise an issue that lacks merit.") (citation omitted). Furthermore, because petitioner has
not demonstrated that a fundamental miscarriage ofjustice will occur if his procedurallydefaulted claims for relief are not considered or, in other words, that the alleged errors "probably
resulted in the conviction of one who is actually innocent," see Murray, 477 U.S. at 495-96. See
also Schlup v. Delo, 513 U.S. 298, 327 (1995); Bonilla, 370 F.3d at 498, petitioner has
procedurally defaulted and waived the claims raised in Grounds One and Two of the petition.5
B. Ground Three and Four are without merit.
In Ground Three of the petition, petitioner contends that his trial counsel was ineffective
for failing to object to the admission of the video tape interview and the prosecutor's comments,
the underlying alleged errors in Grounds One and Two of the petition. Petitioner further

5 It is noted that to establish a credible claim of actual innocence sufficient to excuse his procedural default,
petitioner must "support his allegations of constitutional error with new reliable evidence—whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical evidence—that was not
presented at trial." Schlup. 513 U.S. at 324. Petitioner has failed to establish a credible claim of actual innocence
under the Schlup standard, as he has not supported his allegations of constitutional error with any new evidence of
actual innocence. "Without any new evidence of innocence, even the existence of a concededly meritorious
constitutional violation is not in itself sufficient to establish a miscarriage ofjustice that would allow a habeas court
to reach the merits of a barred claim." Schlup. 513 U.S. at 316.

14

‘ Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 15 of 30 PAGEID #: 1426

contends that trial counsel was ineffective for failing to move for an acquittal pursuant to Ohio
Crim. R. 29. In Ground Four, petitioner contends that insufficient evidence was presented at trial
to support his convictions. (See Doc. 1 at PagelD 15-17).
The Supreme Court precedent setting forth the clearly-established federal legal principles
applicable to petitioner's ineffective assistance of counsel claims is Strickland v. Washington,
466 U.S. 668 (1984). In order to establish an ineffective assistance of counsel claim, petitioner
must demonstrate that (1) his trial attorney made such serious errors that he was not functioning
as the "counsel" guaranteed by the Sixth Amendment; and (2) counsel's deficient performance
prejudiced the defense. See id. at 687.
Under the first prong of the Strickland test, petitioner must demonstrate that his counsel’s
representation fell below an objective standard of reasonableness based on all the circumstances
surrounding the case. Id. at 688. Judicial scrutiny of counsel's performance must be highly
deferential, and a "fair assessment of attorney performance requires that every effort be made to
eliminate the distorting effects of hindsight" and to evaluate the challenged conduct from
counsel's perspective at the time of the conduct. Id. at 689. In determining whether or not
counsel's performance was deficient, the Court must indulge a strong presumption that counsel s
conduct fell within the wide range of reasonable professional assistance. Id.
To satisfy the "prejudice" prong of the Strickland test, petitioner must show that a
"reasonable probability" exists that, but for his counsel's errors, the result of the criminal
proceedings would have been different. Id. at 694. A showing by petitioner that the alleged
errors had "some conceivable" effect on the outcome of the proceeding is insufficient to meet
this standard. Id. at 693. However, by the same token, petitioner need not demonstrate that his
15

Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 16 of 30 PAGEID #: 1427

counsel s conduct more likely than not" altered the outcome of the proceeding to establish
prejudice. See id Petitioner has met his burden if he shows that the decision reached would
"reasonably likely have been different absent the errors." Id. at 695; see also Willis v. Smith, 351
F.3d 741, 745 (6th Cir. 2003); UcMeans v. Brigano, 228 F.3d 674, 682 (6th Cir. 2000).
The Court need not examine the question of whether counsel's performance was deficient
before addressing the question of whether petitioner was prejudiced by counsel's performance.
The Court may dispose of an ineffective assistance of counsel claim by finding that petitio ner
has made an insufficient showing on either ground. Id. at 697.
On direct appeal, the Ohio Court of Appeals was the only state court to issue a reasoned
decision addressing the merits of petitioner's ineffective assistance claims. The appeals court
overruled petitioner's assignment of error, ruling as follows:
{11 14} In his third assignment of error, Ridder claims that his trial counsel
was ineffective for failing to make a Crim.R. 29 motion for an acquittal at the close
of the state's case, failing to object to the admission of the video recording of the
interview between S.W. and Westgate, and failing to object to the questions and
statements that formed the basis for his claims of prosecutorial misconduct. Ridder
has failed to demonstrate that counsel was ineffective in these areas.
{If 15} To prove ineffective assistance of counsel, a defendant generally has to
demonstrate that counsel's performance was deficient and that the deficient
performance was prejudicial. Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed .2d 674 (1984); State v. Bradley, 42 Ohio St.3d 136, 141-142, 538
N.E.2d 373 (1989). Prejudice results when there is a reasonable probability that,
but for counsel's unprofessional errors, the result of the proceeding would have
been different. Bradley at 142.
(If 16} Ridder first argues that it was ineffective for trial counsel to fail to make
a Crim.R. 29 motion at the close of the state's case. But it is not ineffective
assistance to fail to file a motion that would not have been successful. See State v.
HiU, 75 Ohio St.3d 195, 211, 661 N.E.2d 1068 (1996). S.W.'s testimony alone was
sufficient to meet the state's burden on all the charges listed in the indictment.
Therefore, had counsel made a Crim.R. 29 motion, it would not have succeeded.
16

' .Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 17 of 30 PAGEID #: 1428

{H 17} Ridder next argues that it was ineffective for trial counsel to fail to object
to the admission of the video of the interview of S.W. by Westgate. But the video
was crucial to defense counsel's trial strategy. First, counsel sought to convince
the jury that the events S.W. described occurred in Kentucky, not Ohio. In closing,
he said that "if you believe the recording, no conviction." He then went on to say
that, if they doubted the statement that she made that the events occurred in
Kentucky, "you're doubting the key evidence." Without the video, counsel would
not have been able to make the argument, because no other admitted evidence
placed the events in Kentucky.
{11 18} Additionally, counsel argued that S.W.’s mother had coached her in order
to stay in the domestic-violence shelter in Circleville. The only evidence of
coaching that counsel was able to develop came from the phrasing of a couple of
S.W.'s statements in the recording, and he referred to it repeatedly during his
closing argument. Without the recording, counsel would not have had any direct
evidence of coaching.
{H 19} While these two strategies ultimately proved unsuccessful, that does not
mean that they were not sound trial strategies based on the case counsel had to
defend. Even "debatable" trial tactics do not establish ineffective assistance of
counsel. State v. Leonard, 104 Ohio St.3d 54, 2004-Ohio-6235, 818 N.E.2d 229, H
146. And trial counsel's strategy was far from debatable, being likely his best
argument for acquittal based on the evidence presented by the state.
{U 20} Finally, Ridder argues that it was ineffective for trial counsel to fail to object
to the statements and comments made by the prosecutor. But none of the
statements were improper. And merely failing to object to a few leading questions
is not ineffective assistance. There is value, from a trial-strategy perspective, to
not objecting to every de minimis violation during the course of a trial. See State
v. Conway, 108 Ohio St.3d 214, 2006-0hio-791, 842 N.E.2d 996, H 168; State v.
Holloway, 38 Ohio St.3d 239, 244, 527 N.E.2d 831 (1988). The fact-finder may
perceive objections to be disruptive and annoying, and an objection may draw
unwanted attention to an issue that might pass without the jury's notice absent
the objection. See State v. Campbell, 69 Ohio St.3d 38, 53, 630 N.E.2d 339
(1994); State v. Mundt, 115 Ohio St.3d 22, 2007-Ohio-4836, 873 N.E.2d 828, 11
90. As a result, "competent counsel may reasonably hesitate to object in the jury's
presence." Campbell at 53.
{1i 21} This reasoning goes for objections during closing arguments as well. A
reasonable attorney may decide not to interrupt his opponent s closing
argument. State v. Campbell, 90 Ohio St.3d 320, 339, 738 N.E.2d 1178 (2000). In

17

. -Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 18 of 30 PAGEID #: 1429

addition, Ridder has failed to demonstrate that, but for these comments and the
leading questions, the outcome would have been different. See Bradley at 142.
{H 22} Since Ridder has failed to show that aCrim.R. 29 motion would have
succeeded, that the admission of the video recording and the failure to object to
the prosecutor's questions or comments was not sound trial strategy, or that the
outcome of his trial would have been different in any event, he has failed to
establish that his counsel was ineffective. We overrule his third assignment of
error.

(Doc. 8, Ex. 8 at PagelD 106-108).
After review of the entire record, the Court finds that petitioner has not demonstrated that
the Ohio Court of Appeals' decision was contrary to or an unreasonable application of federal
law. The appellate court correctly identified Strickland as the controlling Supreme Court
precedent and reasonably concluded that petitioner's claims were without merit.
First, petitioner is not entitled to federal habeas relief based on his claims that trial
counsel was ineffective for failing to object to the admission of the video interview of the victim
or comments from the prosecutor. With respect to the admission of the video interview,
petitioner contends that the testimony was inadmissible hearsay, which deprived him of a fair
trial. However, the Ohio appeals court determined that the testimony was admissible under Ohio
Evid. R. 803(4), which provides an exception to the hearsay rule for "[s]tatements made for the
purposes of medical diagnosis or treatment and describing medical history, or past or present
symptoms, pain, or sensations, or the inception or general character of the cause or external
source thereof insofar as reasonably pertinent to diagnosis or treatment.”6 As noted above (see
6 In reviewing the underlying claim for plain error, the Court of Appeals ruled as follows (see Doc. 8, Ex. 8 at
PagelD 104-105):
HI Evid.R. 803(4) provides an exception to the hearsay rule for "[statements made for the purposes of medical
diagnosis or treatment and describing medical history, or past or present symptoms, pain, or sensations, or the
18

‘ . Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 19 of 30 PAGEID #: 1430

supra n.3), petitioner is not entitled to federal habeas to the extent that he claims the trial court
misapplied the Ohio rules of evidence7 and this Court is bound by the state court's interpretation
of state law. See Bennett v. Warden, Lebanon Corr. Inst., 782 F. Supp.2d 466, 478 (S.D. Ohio
2011) (and cases cited therein) ("because the state courts are final authority on state-law issues,
the federal habeas court must defer to and is bound by the state court's rulings on such matters”).
Because the underlying error was itself without merit, counsel was not ineffective for failing to
object. See Davie, 547 F.3d at 312.

inception or general character of the cause or external source thereof insofar as reasonably pertinent to diagnosis or
treatment." This court has previously held that similar statements made by a child victim to a social worker at the
Mayerson Center were admissible under Evid. R. 803(4). See State v. Lukacs, 188 Ohio App.3d 597, 2010-Ohio2364, 936, 936 N.E.2d 50614-12 (1st Dist.); State v. Bowers,1st Dist. Hamilton No. C-150024, 2016-0hio-904, t
20-24.
(1 8} In determining whether a child's statements were made for the purpose of medical diagnosis or treatment,
the Lukacs court noted that the inquiry "depends upon the facts of the particular case" and the factors to be examined
include (1) the nature of the questioning—whether the interviewer asked leading or suggestive questions; (2)
whether the child had a reason to lie; (3) whether the child understood the need to tell the truth; (4) the age of the
child at the time the statements were made; and (5) whether the child's statements were consistent. Lukacs at If 7.
9} Our application of the facts in this case to the considerations set forth in Lukacs cause us to conclude that the
statements were made for the purpose of medical diagnosis or treatment. Westgate did not ask leading or suggestive
questions, S.W. had no reason to lie, Westgate impressed upon her the need to tell the truth, her responses were
ageappropriate, and they were consistent. Additionally, as the trial court noted at sentencing, the level of detail S.W.
volunteered about the experiences—how things looked, felt, and tasted for example—were wholly inconsistent with
either fabrication or coaching. Therefore, the interview was admissible pursuant to Evid. R. 803(4). We overrule
Ridder's first assignment of error.
7 Petitioner also claims that because the victim interview was testimonial admitting it at trial violated his rights
under the Confrontation Clause. (See Doc. 11 at PagelD 1394-95). He cites State v. Arnold, 933 N.E.2d 775 (Ohio
2010) for the proposition that statements made to interviewers at child advocacy centers that primarily serve a
forensic or investigative purpose are testimonial and are inadmissible under the Confrontation Clause. However,
unlike in Arnold, the victim in petitioner’s case took the stand and was subject to cross examination. Accordingly,
the Confrontation Clause was not implicated and the admission of the recorded interview did not violate petitioner's
right to confront the witnesses against him. Crawford v. Washington, 541 U.S. 36, 59, (2004); Levingston v.
Warden, 891 F.3d 251, 254-55 (6th Cir. 2018).
For the reasons stated above, petitioner has likewise failed to demonstrate that the trial court's evidentiary ruling was
so egregious that it resulted in the denial of his due process rights. See Bugh v. Mitchell, 329 F.3d 496, 512 (6th Cir.
2013) (noting that a state evidentiary ruling may violate due process where the "evidentiary ruling is so egregious
that it results in a denial of fundamental fairness").

19

. Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 20 of 30 PAGEID #: 1431

Furthermore, the Ohio Court of Appeals reasonably determined that counsel's failure to
object to the testimony was trial strategy. Defense counsel argued that the charged conduct
described by the victim occurred in Kentucky and that the victim's mother coached her. (See
Doc. 8, Trans, at PagelD 1207, 1215-1219, 1228). As noted by the Ohio appeals court, the
recorded testimony was necessary to demonstrate both.8 Because the Ohio Court of Appeals
reasonably determined that counsel's failure to object was the result of trial strategy, the state
court reasonably determined that petitioner's ineffective assistance of counsel claim was without
merit. Walker v. Morrow, 458 F. App’x 475,487 (6th Cir. Feb. 1, 2012) (citing Hodge v.
Hurley, 426 F.3d 368, 385-86 (6th Cir. 2005)) ("A petitioner's ineffective assistance claim based
on counsel's failure to object will not succeed if the decision not to object flowed from
objectively reasonable trial strategy.").
Petitioner is also not entitled to federal habeas relief with respect to his claim that trial
counsel was ineffective for failing to object to alleged prosecutorial misconduct. On direct
appeal, petitioner argued that the prosecutor continually asked leading questions and made
improper comments in closing arguments. {See Doc. 8, Ex. 6 at PagelD 75-76). As noted
above, the Ohio Court of Appeals determined that petitioner's ineffective assistance claim was
without merit, finding that petitioner failed to show that he was prejudiced. Specifically, the
appeals court found that the prosecutor's comments during closing were fair comments on the
evidence/arguments of defense and the leading questions were not related to key testimony. On
8

For example, defense counsel argued, "If you believe the most direct, the most time-crucial statement of that girl,
you cannot convict this man. Why? Because if you believe that statement, you believe when the girl was asked,
where did these acts occur? Kentucky. That’s what she said." (Doc. 8, Trans, at PagelD 1207).
20

' .Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed; 05/14/19 Page: 21 of 30 PAGEID #: 1432

this basis, the Ohio appeals court determined that the alleged conduct did not impact the outcome
of the trial.9 (See Doc. 8, Ex. 8 at PagelD 105-108). Upon review of the record and petitioner's
alleged instances of prosecutorial misconduct, the undersigned agrees with the assessment of the
Ohio Court of Appeals. Because petitioner failed to demonstrate a reasonable probability that
the result of his trial would have been different absent the alleged ineffective assistance, he is not
entitled to federal habeas relief based on his ineffective assistance of counsel claims raised in
Ground Three of the petition. See Strickland, 466 U.S. at 687.
Petitioner is also not entitled to federal habeas relief based on his sufficiency of the
evidence claim raised in Ground Four or his related claim that counsel was ineffective for failing
to move for a directed verdict under Rule 29. The Ohio Court of Appeals was the only state
court to issue a reasoned decision addressing the merits of petitioner's assignment of error
challenging the sufficiency and manifest weight of the evidence. The court rejected both claims,
providing the following summary of the testimony at trial and reasoning in support of its
decision:
ui 23} Ridder's fourth assignment of error is that his convictions were based on
insufficient evidence and against the manifest weight of the evidence. When an
appellant challenges the sufficiency of the evidence, we must determine whether
the state presented adequate evidence on each element of the offense. State v.
Thompkins, 78 Ohio St.3d 380, 386, 678 N.E.2d 541 (1997). On the other hand,
when reviewing whether a judgment is against the manifest weight of the
evidence, we must determine whether the jury clearly lost its way and created a
manifest miscarriage of justice. Id. at 387.
9 With respect to the leading questions, in reviewing for plain error, the Court of Appeals found no prejudice:
Of the five page citations listed by Ridder that he claims contained leading questions, none of them were related to
key testimony about the incidents referenced in the indictment. These five, isolated instances in a trial that lasted
several days and from a transcript that contained over 1200 pages—did not affect the outcome of the trial. (Doc. 8,
Ex. 8 at PagelD 105).

21

T
Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 22 of 30 PAGEID #: 1433

{1! 24} S.W.'s testimony was enough to establish the elements of all four rape
counts and the GSI count. She testified that it hurt when he put his finger in her,
that he would "wiggle" his finger when it was inside her, and that she knew that
he had put his finger inside her because he had "opened" her and she could feel
it. She described his penis as a "fat noodle" with a hole at the end, and said that
he would "wiggle" it when [*31] he put it in her mouth. She said that it tasted
"nasty" and that she would gargle with water afterward to get rid of the taste. As
the trial court noted, her testimony went far beyond what a then seven-year-old
girl would have been able to discuss—even with "coaching."
{n 25} And, while S.W. said that the events occurred in Kentucky when interviewed
by Westgate, at trial the state was careful to ask her only about things that
happened in the Delhi home. And, based on the testimony about where the family
had lived on different dates, it was clear that the events that S.W. described had
occurred in Hamilton County, Ohio. The fact that S.W.’s mother was addicted to
and actively using heroin, cocaine, and prescription pain pills, and was a chronic
liar does not change this. And while Ridder points to the fact that there was no
physical evidence to establish the claims, both a doctor from the Mayerson Center
and Detective Macaluso testified that the lack of physical evidence is actually
common in this type of case.
{U 26} The state presented sufficient evidence to prove that, on at least two
occasions, Ridder had digitally penetrated S.W.'s vagina or anus, forced S.W. to
perform fellatio [*32] on him, engaged in cunnilingus with S.W., and forced S.W.
to grab his penis with her hand. This was sufficient to establish the four counts of
rape and one count of GSI of which he was found guilty. And those guilty findings
were not against the manifest weight of the evidence. We overrule Ridder's fourth
assignment of error.

(Doc. 8, Ex. 8 at PagelD 108-110).
After review of the record in this case, the undersigned finds that petitioner is not entitled
to habeas relief based upon his sufficiency of evidence claim. The clearly-established standard
of review for evaluating the merits of constitutional claims challenging the sufficiency of the
evidence was established by the Supreme Court in Jackson v. Virginia, 443 U.S. 307 (1979). As
the Supreme Court held in Jackson, because the Due Process Clause requires the State to prove
beyond a reasonable doubt every fact necessary to constitute the charged offense, In Re Winship,
22

' Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 23 of 30 PAGEID #: 1434

397 U.S. 358, 363-64 (1970), "the relevant question" in assessing the sufficiency of the evidence
"is whether, after viewing the evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of the crime beyond a reasonable
doubt." Jackson, 443 U.S. at 319 (emphasis in original).
Under the Jackson standard, the State is not required to rule out every hypothesis except
that of guilt beyond a reasonable doubt. Id. at 326. Rather, "a federal habeas corpus court faced
with a record of historical facts that supports conflicting inferences must presume—even if it
does not affirmatively appear in the record—that the trier of fact resolved any such conflicts in
favor of the prosecution, and must defer to that resolution." Id.', see also Walker v. Engle, 703
F.2d 959, 969-70 (6th Cir. 1983). It is the responsibility of the trier of fact to resolve conflicts in
testimony, to weigh the evidence and to draw reasonable inferences from the evidence. Jackson,
443 U.S. at 319. Consequently, the reviewing court is not permitted to reweigh the evidence,
reevaluate the credibility of witnesses, make its own subjective determination of guilt or
innocence, or otherwise substitute its opinion for that of the jury. See id. at 318-19 & n.13, see
also United States v. Fisher, 648 F.3d 442, 450 (6th Cir. 2011) (citing Brown v. Konteh, 567
F.3d 191, 205 (6th Cir. 2009)); York v. Tate, 858 F.2d 322, 329 (6th Cir. 1988) (per curiam).
"Circumstantial evidence alone is sufficient to support a conviction. Newman v.
Metrish, 543 F.3d 793, 796 (6th Cir. 2008) (quoting Johnson v. Coyle, 200 F.3d 987, 992 (6th
Cir. 2000)); see also Fisher, 648 F.3d at 450. Due process is satisfied as long as such evidence is
enough for a rational trier of fact to make a permissible inference of guilt, as opposed to a
reasonable speculation that the petitioner is guilty of the charged crime. Newman, 543 F.3d at
796-97 (and Sixth Circuit cases cited therein).
23

T
Case: 1:18-cv-00061-MRB-SKB Doc#: 12 Filed: 05/14/19 Page: 24 of 30 PAGEID #: 1435

Moreover, federal habeas review of a claim challenging the sufficiency of the evidence is
even further limited. As the Sixth Circuit explained in Brown, 567 F.3d at 205, the federal
habeas court is "bound by two layers of deference to groups who might view facts differently
than [the habeas court] would." The federal habeas court must defer not only to the trier of
fact's findings as required by Jackson, but under 28 U.S.C. § 2254(d), must also "defer to the
state appellate court’s sufficiency determination as long as it is not unreasonable." Id. (emphasis
in original); see also Davis v. Lafler, 658 F.3d 525, 531 (6th Cir. 2011), cert, denied, 132 S. Ct.
1927 (2012); Anderson v. Trombley, 451 F. App'x 469, 474-75 (6th Cir. 2011). Therefore, as the
Sixth Circuit went on to emphasize in Brown:
[W]e cannot rely simply upon our own personal conceptions of what evidentiary
showings would be sufficient to convince us of the petitioner's guilt. We cannot
even inquire whether any rational trier of fact would conclude that petitioner ... is
guilty of the offenses for which he was charged. Instead, we must determine
whether the Ohio Court of Appeals itself was unreasonable in its conclusion that a
rational trier of fact could find [the petitioner] guilty beyond a reasonable doubt
based on the evidence introduced at trial.
Brown, 567 F.3d at 205 (emphasis in original).
Applying the double-layer deferential standard to the case-at-hand, the undersigned is
convinced that the Ohio Court of Appeals' sufficiency determination is neither contrary to nor an
unreasonable application of Jackson. As reasonably determined by the Ohio appeals court, the
victim's testimony provided sufficient evidence to sustain his convictions.10 Although petitioner
argued at trial that the alleged conduct occurred in Kentucky, the victim specifically testified as
10 Petitioner was tried and convicted of four counts of rape under Ohio Rev. Code § 2907.02(A)(1)(b), which
prohibits sexual conduct with another person who is less than thirteen years of age, and one count of gross sexual
imposition under Ohio Rev. Code § 2907.05(A)(4), which prohibits sexual contact with another who is under the
age of thirteen.
24

' Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 25 of 30 PAGEID #: 1436

to incidents of sexual abuse occurring while she lived in Ohio. (Doc. 8, Trans, at PagelD 968
69, 988). As summarized by the Ohio appeals court above, she testified that petitioner digitally
penetrated her on more than one occasion (Id. at PagelD 971, 989), engaged in cunnilingus with
her (Id. at PagelD 985), forced her to touch his penis with her hand (Id. at PagelD 986), and
forced her to perform fellatio on him (Id. at PagelD 987—88). Although “the testimony of the
victim alone is constitutionally sufficient to sustain a conviction,” Tucker v. Palmer, 541 F.3d
652 659 (6th Cir. 2008), as argued by respondent, the state also introduced corroborating
evidence at trial. Specifically, the victim’s mother testified that she observed petitioner coming
out of her daughter’s bedroom naked with an erection. (Doc. 8, Trans, at PagelD 570—71, 779).
The victim’s brother also testified that he heard petitioner in the bedroom with the victim and she
told him “[petitioner] did bad things to me.” (Id. at PagelD 837-39).
Although petitioner argues—as he did at trial Mid on appeal—that no physical evidence
was presented at trial and the victim’s testimony was inconclusive and inconsistent, it is not the
province of this court to reweigh the evidence on habeas review. See Matthews v. Abramajtys>
319 F.3d 780, 788 (6th Cir. 2003) (noting that a habeas court “does not reweigh the evidence or
redetermine the credibility of the witnesses whose demeanor has been observed by the trial
court”). The Ohio Court of Appeals’ adjudication of petitioner’s sufficiency-of-evidence claims
involved a reasonable application of the Jackson standard and was based on a reasonable
determination of the facts in light of the evidence presented at trial.
Accordingly, petitioner is not entitled to relief on Ground Four of the petition. Because
petitioner’s sufficiency of evidence claim is without merit, counsel was not ineffective for failing
to file a Rule 29 motion, as petitioner claims in Ground Three.
25

,

'

Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 26 of 30 PAGEID #: 1437

C. Ground Five is not cognizable
In Ground Five, petitioner contends that the trial court imposed an excessive sentence
without making required statutory findings under Ohio law. Specifically, petitioner contends
that the sentence did not comply with Ohio Rev. Code §§ 2929.14(c)(4), 2953.08(g), 2929.11,
and 2929.12. (See Doc. 1 atPagelD 17).
Petitioner has not stated a cognizable claim in Ground Five. A federal court may review
a state prisoner’s habeas petition only on the ground that the challenged confinement violates the
Constitution, laws or treaties of the United States, and not “on the basis of a perceived error of
state law.” 28 U.S.C. § 2254(a); Pulley, 465 U.S. at 41; see also Estelle v. McGuire, 502 U.S.
62, 67-68 (1991) (“it is not the province of a federal court to reexamine state-court
determinations on state-law questions”). On direct appeal, the Ohio Court of Appeals found that
petitioner’s claims were without merit. {See Doc. 8, Ex. 8 at PagelD 110-11). Specifically, the
Court of Appeals determined that Ohio law did not require the trial court to make factual
findings or give reasons for imposing the maximum term of confinement. The appeals court
further found petitioner’s claim regarding consecutive sentences to be without merit, noting that
petitioner was not sentenced to serve his multiple sentences consecutively. {See id.).
Petitioner’s claim that the state court misapplied Ohio Rev. Code §§ 2929.14(c)(4),
2953.08(g), 2929.11, and 2929.12 does not state a cognizable ground for habeas relief.
Accordingly, petitioner is not entitled to federal habeas relief based on Ground Five of the
petition.
D. Ground Six is procedurally defaulted and waived.
In Ground Six, petitioner contends that his appellate counsel was ineffective for failing to
26

. •. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 27 of 30 PAGEID #: 1438

raise issues regarding venue, prosecutorial misconduct, and hearsay evidence. (Doc. 1 at PagelD
18-19). Petitioner argued that he received the ineffective assistance of appellate counsel in his
Rule 26(B) application to the Ohio Court of Appeals. However, he procedurally defaulted his
claims by failing to timely file his 26(B) application and appeal the Ohio Court of Appeals’
decision to the Ohio Supreme Court. Ohio R. App. P. 26(B) provides that a reopening
application based on an ineffective assistance of appellate counsel claim must be filed “within
ninety days from journalization of the appellate judgment unless the applicant shows good cause
for filing at a later time.” See also Hojfner, 860 N.E.2d at 1022-23; LaMar. 812 N.E.2d at 971.
Here, petitioner failed to comply with that rule when he filed his reopening application on
November 4, 2016, three days after the 90-day period expired on November 1, 2016 from the
August 3, 2016 appellate-judgment journalization date. (See Doc. 8, Ex. 12, 13). As noted
above, the Ohio Court of Appeals denied his application upon finding that the application was
untimely and petition failed to establish good cause for his delay. (See Doc. 8, Ex. 18).
As cause for the default, petitioner claims that he provided prison officials with his
application five days before the filing deadline. (See Doc. 11 at PagelD 1376. See also, Doc. 8,
Ex. 17). However, even if the federal “prison mailbox rule” applied to his state court filing,11
petitioner committed a second procedural default when he failed to file a timely appeal to the
Ohio Supreme Court from the Ohio Court of Appeals! decision. Petitioner claims he tried to file
a delayed appeal and has attached to his reply a notice of appeal stamped as received by the Ohio
Supreme Court on August 3, 2017, August 28, 2017, November 20,2017, and December 29,

11 Ohio does not follow the federal “prison mailbox rule,” which provides that submissions by pro se prisoners “are
considered filed at the moment of delivery to prison officials for mailing.” Foster v. Warden, ChiUicothe Corr.
Inst., 575 F. App’x 650,653-54 (6th Cir. 2014) (citing Houston v. Lack, 487 U.S. 266,271-72 (1988)).

27

. . Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 28 of 30 PAGEID #: 1439

2017. (See Doc. 11 at PagelD 1403). However, the filing is not reflected on the Ohio Supreme
Court’s online docket records or the Hamilton County Clerk of Court records search. In any
event, the Ohio Supreme Court does not accept delayed appeals from the denials of applications
to reopen under Ohio App. R. 26(B). See Sup.Ct.Prac.R. 7.01(A)(4). Petitioner’s motion was
filed at the earliest on August 3, 2017, more than six months after the Ohio Court of Appeals
January 13, 2017 decision denying his application as untimely and long after his time expired for
filing a timely appeal to the Ohio Supreme Court. Accordingly, in the absence of a showing that
a fundamental miscarriage ofjustice will occur if his procedurally-defaulted claims for relief are
not considered, petitioner has procedurally defaulted and waived the claims raised in his Sixth
Ground for relief.
Accordingly, in sum, having found that petitioner’s grounds for relief are non-cognizable,
without merit, or procedurally defaulted and waived, the petition should be denied.
IT IS THEREFORE RECOMMENDED THAT:
1. Petitioner’s petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 (Doc. 1)
be DENIED with prejudice.
2. A certificate of appealability should not issue with respect to the claims alleged in the
petition, which this Court has concluded are waived and thus procedurally barred from review,

*

because under the first prong of the applicable two-part standard enunciated in Slack v.
McDaniel, 529 U.S. 473, 484-85 (2000), “jurists of reason” would not find it debatable whether
this Court is correct in its procedural ruling.12

12 Because this Court finds that the first prong of the Slack standard has not been met in this case, it need not address
the second prong of Slack as to whether or not “jurists of reason” would find it debatable whether petitioner has
stated a viable constitutional claim in any of his grounds for relief. See Slack, 529 U.S. at 484.

28

• ' Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 29 of 30 PAGEID #: 1440

A certificate of appealability should not issue with respect to the claims alleged in the
petition, which have been addressed on the merits herein, because petitioner has not stated a
“viable claim of the denial of a constitutional right,” nor are the issues presented “adequate to
deserve encouragement to proceed further.” See Slack v. McDaniel, 529 U.S. 473, 475 (2000)
(citing Barefoot v. Estelle, 463 U.S. 880, 893 & n.4 (1983)). See also 28 U.S.C. § 2253(c); Fed.
R. App. P. 22(b).
3. With respect to any application by petitioner to proceed on appeal in forma pauperis,
the Court should certify pursuant to 28 U.S.C. § 1915(a)(3) that an appeal of any Order adopting
this Report and Recommendation would not be taken in “good faith,” and therefore DENY
petitioner leave to appeal in forma pauperis upon a showing of financial necessity. See Fed. R.
App. P. 24(a); Kincade v. Sparkman, 117 F.3d 949, 952 (6th Cir. 1997).

s/ Stephanie K. Bowman
Stephanie K. Bowman
United States Magistrate Judge

29

. ■. Case: l:18-cv-00061-MRB-SKB Doc #: 12 Filed: 05/14/19 Page: 30 of 30 PAGEID #: 1441

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
SAMUEL KIDDER,
Petitioner,

Case No. l:18-cv-61
Barrett, J.
Bowman, M.J.

vs.
WARDEN, CHILLICOTHE
CORRECTIONAL INSTITUTION,
Respondent.

NOTICE
Pursuant to Fed. R. Civ. P. 72(b), WITHIN 14 DAYS after being served with a copy of
the recommended disposition, a party may serve and file specific written objections to the
proposed findings and recommendations. This period may be extended further by the Court on
timely motion for an extension. Such objections shall specify the portions of the Report objected
to and shall be accompanied by a memorandum of law in support of the objections. If the Report
and Recommendation is based in whole or in part upon matters occurring on the record at an oral
healing, the objecting party shall promptly arrange for the transcription of the record, or such
portions of it as all parties may agree upon, or the Magistrate Judge deems sufficient, unless the
assigned District Judge otherwise directs. A party may respond to another party’s objections
WITHIN 14 DAYS after being served with a copy thereof. Failure to make objections in
accordance with'this procedure may forfeit rights on appeal. See Thomas v. Am, 474 U.S. 140
(1985); United States v. Walters, 638 F.2d 947 (6th Cir. 1981).

30

No. 20-3525
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SAMUEL RIDDER

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,

v.
TIM SHOOP, WARDEN,
Respondent-Appellee.

FILED

Jan 08, 2021
DEBORAH S. HUNT, Clerk

ORDER

Before: McKEAGUE, DONALD, and READLER, Circuit Judges.
Samuel Ridder, a federal prisoner, petitions the court to rehear en banc its order denying
him a certificate of appealability. The petition has been referred to this panel, on which the original
deciding judge does not sit, for an initial determination on the merits of the petition for rehearing.
Upon careful consideration, the panel concludes that the original deciding judge did not
misapprehend or overlook any point of law or fact in issuing the order and, accordingly, declines
to rehear the matter. Fed. R. App. P. 40(a).
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX D

No. 20-3525
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SAMUEL RIDDER

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
TIM SHOOP, WARDEN
Respondent-Appellee.

FILED
Jan 25,2021
DEBORAH S. HUNT, Clerk

ORDER

Before: McKEAGUE, DONALD, and READLER, Circuit Judges.
Samuel Ridder petitions for rehearing en banc of this court’s order entered on October 16,
2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

APPENDIX E

IN THE COURT OF APPEALS
FIRST APPELLATE DISTRICT OF OHIO
HAMILTON COUNTY, OHIO
D115264399
APPEAL NO. C-150460
TRIAL NO. B-1306452

STATE OF OHIO,
Plaintiff-Appellee,

JUDGMENT ENTRY.
vs.
SAMUEL RIDDER,

EIWIred

Defendant-Appellant.

AUG 03 2016

This cause was heard upon the appeal, the record, the briefs, and arguments.
The judgment of the trial court is affirmed for the reasons set forth in the
Opinion filed this date.
Further, the court holds that there were reasonable grounds for this appeal,
allows no penalty, and orders that costs are taxed under App. R. 24.
The court further orders that 1) a copy of this Judgment with a copy of the
Opinion attached constitutes the mandate, and 2) the mandate be sent to the trial
court for execution under App. R. 27.

To The Clerk:
Enter upon the Journal of the Court on August 3,2016 per Order of the Court
By:
Presiding Judge

APPENDIX F

IN THE COURT OF APPEALS
FIRST APPELLATE DISTRICT OF OHIO
HAMILTON COUNTY, OHIO

STATE OF OHIO,

APPEAL NO. C-150460
TRIAL NO. B-1306452

Plaintiff-Appellee,
OPINION:
vs.

SAMUEL RIDDER,
Defendant-Appellant.

PRESENTED TO THE CLERK
. OF COURTS FOR FILING
AUG 03 2016
COURT OF APPEALS

Criminal Appeal From: Hamilton County Court of Common Pleas
Judgment Appealed From Is: Affirmed
Date of Judgment Entry on Appeal: August 3, 2016

Joseph T. Deters, Hamilton County Prosecuting Attorney, and Paula E. Adams,
Assistant Prosecuting Attorney, for Plaintiff-Appellee,
Roger W. Kirk, for Defendant-Appellant.

ENTERED
AUG Q3 2016

Ohio First District Court of Appeals
Mock, Judge.
Defendant-appellant Samuel Ridder moved in with S.W.’s mother
shortly after S.W. was born. For the first few years, the three lived in Kentucky with
S.W.’s older brother. Shortly after S.W.’s mother gave birth to another child, the
family moved to Delhi. According to testimony by S.W. at trial, Ridder, on several
occasions, both in her bedroom and his bedroom, had placed his fingers in her
vagina and her anus, licked her privates, made her rub his penis with her hand, and
put his penis in her mouth. S.W.’s mother had been unaware of Ridder’s conduct at
the time of the incidents, which had occurred when S.W. was between four and five
years old.

m

After a domestic-violence incident, S.W.’s mother took the children

and left the home. After staying briefly with S.W.’s maternal grandfather, S.W.’s
mother took the children with her to stay in a domestic-violence shelter in Circleville,
Ohio. After staying at the shelter for a few weeks, S.W. disclosed the incidents to her
mother. Her mother took S.W. to the Center for Family Safety and Healing at the
Nationwide Children’s Hospital in Columbus (“Center”). The Center operates under
the same guidelines and protocols as the Mayerson Center for Safe and Healthy
i

Children at the Cincinnati Children’s Hospital Medical Center (“Mayerson Center”).
S.W. was interviewed by Jennifer Westgate, a licensed social worker. After the
interview, during which she disclosed some of the conduct and indicated that it had
happened “in Kentucky,” S.W. was examined and treated by physicians with the
hospital. Additionally, staff members from the Center contacted the Delhi Police
Department.

m

Detective Joe Macaluso contacted Ridder and asked him to appear for

an interview. In the interview, Ridder denied the allegations*' After rm^lpHing i

ENTERED
2

AUG 03 20)6

Ohio First District Court of Appeals
interview, Macaluso released Ridder, but told him that he would likely need to be
seen again. Because Macaluso had surgery during that time, several months passed
before he could contact Ridder. After a couple of failed attempts to coordinate their
schedules, Ridder refused to further cooperate with the police. He was later arrested
and indicted on four counts of rape, in violation of R.C. 2907.02(A)(1)(b). The first
two rape counts alleged digital penetration of the vaginal or anal cavity, the third
rape count alleged that he had engaged in cunnilingus with S.W., and the fourth
count alleged that he had compelled S.W. to engage in fellatio. He was also charged
with one count of gross sexual imposition (“GSI”), in violation of R.C. 2907.05(A)(4),
for forcing S.W. to touch his penis with her hand.

m

At trial, Ridder’s trial counsel pursued two separate theories of the

case. Counsel’s first theory was that her mother had coached S.W. to make the
allegations in order to secure the family’s stay at a domestic-violence shelter in
Circleville. Counsel’s second approach to the case involved convincing the jury that
the incidents occurred in Kentucky, based on what S.W. had said in her interview
with Westgate.

m

Ridder was found guilty of all charges. The trial court sentenced

Ridder to life in prison without parole for each of the rape convictions, and to 18
months in prison.for the GSI. Neither the transcript of the proceedings nor the
sentencing entry explicitly states whether the life sentences were to be served
consecutively or concurrently.
The Admission of S.W.’s Interview
Was Not Plain Error

ffl6}

In his first assignment of error, Ridder claims that the trial court erred

by allowing the state to play the video recording of S.W.’s interview with Westgate to the

3

ENTERED
AUG 03 2016

Ohio First District Court of Appeals
jury, and by admitting that recording into evidence. Ridder concedes, however, that he
did not object, so he has waived all but plain error. Reversal for plain error is warranted
only if the outcome "clearly would have been different absent the error.” State v. HiU, 92
Ohio St.3d 191, 203, 749 N.E.2d 274 (2001). Given our review of the record, we find no
plain error.

W)

Evid.R. 803(4) provides an exception to the hearsay rule for

“[statements made for the purposes of medical diagnosis or treatment and describing
medical history, or past or present symptoms, pain, or sensations, or the inception or
general character of the cause or external source thereof insofar as reasonably pertinent
to diagnosis or treatment.” This court has previously held that similar statements made
by a child victim to a social worker at the Mayerson Center were admissible under
Evid.R. 803(4). See State u. Lukacs, 188 Ohio App.3d 597,20i0-Ohio-2364, 936 N.E.2d
506,

4-12 (1st Dist); State v. Bowers, 1st Dist. Hamilton No. C-150024, 2016-Ohio-

904, U 20-24.
In determining whether a child’s statements were made for the purpose
of medical diagnosis or treatment, the Lukacs court noted that the inquiry “depends
upon the facts of the particular case” and the factors to be examined include (1) the
nature of the questioning—whether the interviewer asked leading or suggestive
questions; (2) whether the child had a reason to lie; (3) whether the child understood the
need to tell the truth; (4) the age of the child at the time the statements were made; and
(5) whether the child’s statements were consistent. Lukacs at U 7.
fl}9}

Our application of the facts in this case to the considerations set forth in

Lukacs cause us to conclude that the statements were made for the purpose of medical
diagnosis or treatment. Westgate did not ask leading or suggestive questions, S.W. had
no reason to lie, Westgate impressed upon her the need to tell th

4

entered
AUG 03 2016

Ohio First district Court of Appeals
were age-appropriate, and they were consistent. Additionally, as the trial court noted at
sentencing, the level of detail S.W. volunteered about the experiences—how things
looked, felt, and tasted for example—were wholly inconsistent with either fabrication or
coaching. Therefore, the interview was admissible pursuant to Evid.R. 803(4). We
overrule Ridder’s first assignment of error.
Prosecutorial Misconduct

ffilO}

In his second assignment of error, Robinson claims that the trial

prosecutor engaged in misconduct through both a series of leading questions and a
series of comments made during closing argument. Again, counsel failed to object to
any of the cited instances. Of the five page citations listed by Ridder that he claims
contained leading questions, none of them were related to key testimony about the
incidents referenced in the indictment. These five, isolated instances—in a trial that
lasted several days and from a transcript that contained over 1200 pages—did not affect
the outcome of the trial, and therefore, do not constitute plain error.
flfl 1}

As for the comments made during closing argument, none of them were

improper. The test for prosecutorial misconduct in closing argument is whether the
comments were improper and prejudicial to the accused’s substantial rights. State v.
Williams, 99 Ohio St.3d 439, 2003-OM0-4164, 793 N.E.2d 446, 1 44, citing State v.
Smith, 14 Ohio St-3d 13, 14, 470 N.E.2d 883 (1984).

In determining whether a

prosecutor’s remarks during closing argument were prejudicial, we must consider “the
effect the misconduct had on the jury in the context of the entire trial.” State v. Keenan,
66 Ohio St-3d 402,410, 613 N.E.2d 203 (1993).
fl[12}

In this case, the statements made by the prosecutor were fair comments

on the evidence and argument of defense counsel. They did not so adversely afreet the
jury, within the context of the entire trial, that Ridder can now
5

AUG 03 2016

Ohio First District Court of Appeals
out the weaknesses of defense counsel’s closing argument, pointing to claims or
arguments that are disingenuous or not supported by the evidence, or highlighting a
defendant’s conduct that evinces guilt are not improper.
{^13}

Finding no prosecutorial misconduct, we overrule Ridder’s second

assignment of error.
Ineffective Assistance of Counsel

(1)14}

In his third assignment of error, Ridder claims that his trial counsel was

ineffective for failing to make a Crim.R. 29 motion for an acquittal at the close of the
state’s case, failing to object to the admission of the video recording of the interview
between S.W. and Westgate, and failing to object to the questions and statements that
formed the basis for his claims of prosecutorial misconduct.

Ridder has failed to

demonstrate that counsel was ineffective in these areas.
ft|15}

To prove ineffective assistance of counsel, a defendant generally has to

demonstrate that counsel’s performance was deficient and that the deficient
performance was prejudicial. Strickland v. Washington, 466 U.S. 668,104 S.Ct. 2052,
80 L.Ed.2d 674 (1984); State v. Bradley, 42 Ohio St-3d 136, 141-142, 538 N.E.2d 373
(1989). Prejudice results when there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different. Bradley
at 142.

fl[16}

Ridder first argues that it was ineffective for trial counsel to fail to make

a Crim.R. 29 motion at the close of the state’s case. But it is not ineffective assistance to
fail to file a motion that would not have been successful. See State v. Hill, 75 Ohio St.3d
195, 211, 661 N.E.2d 1068 (1996). S.W.’s testimony alone was sufficient to meet the
state’s burden on all the charges listed in the indictment. Therefore, had counsel made a
Crim.R. 29 motion, it would not have succeeded.

entered

AUG 03 2016
6

Ohio First District Court of Appeals
{^17}

Ridder next argues that it was ineffective for trial counsel to fail to object

to the admission of the video of the interview of S.W. by Westgate. But the video was
crucial to defense counsel’s trial strategy. First, counsel sought to convince the jury that
the events S.W. described occurred in Kentucky, not Ohio. In closing, he said that “if
you believe the recording, no conviction.” He then went on to say that, if they doubted
the statement that she made that the events occurred in Kentucky, “you’re doubting the
key evidence.” Without the video, counsel would not have been able to make the
argument, because no other admitted evidence placed the events in Kentucky.
Additionally, counsel argued that SW.’s mother had coached her in
order to stay in the domestic-violence shelter in Circleville. The only evidence of
coaching that counsel was able to develop came from the phrasing of a couple of S.W.’s
statements in the recording, and he referred to it repeatedly during his closing
argument. Without the recording, counsel would not have had any direct evidence of
coaching.
While these two strategies ultimately proved unsuccessful, that does not
mean that they were not sound trial strategies based on the case counsel had to defend.
Even “debatable” trial tactics do not establish ineffective assistance of counsel. State v.
Leonard, 104 Ohio St.3d 54, 2004-Ohio-6235, 818 N.E.2d 229, II 146. And trial
counsel’s strategy was far from debatable, being likely his best argument for acquittal
based on the evidence presented by the state.
fl|20}

Finally, Ridder argues that it was ineffective for trial counsel to fail to

object to the statements and comments made by the prosecutor. But none of the
statements were improper. And merely failing to object to a few leading questions is not
ineffective assistance. There is value, from a trial-strategy perspective, to not objecting
to every de minimis violation during the course of a trial. See State v.

\Qau*—1

§D
7

AUG 03 2016

Ohio First District Court of appeals
St.3d 214, 20o6-Ohio-79i, 842 N.E.2d 996, H168; State v. Holloway, 38 Ohio St.3d 239,
244, 527 N.E.2d 831 (1988). The fact-finder may perceive objections to be disruptive
and annoying, and an objection may draw unwanted attention to an issue that might
pass without the jury’s notice absent the objection. See State v. Campbell, 69 Ohio St.3d
38. 53* 630 N.E.2d 339 (1994); State v. Mundt, 115 Ohio St.3d 22, 2007-Ohio~4836,873
N.E.2d 828,90. As a result, “competent counsel may reasonably hesitate to object in
the jury’s presence.” Campbell at 53.
(1121}

This reasoning goes for objections during closing arguments as well. A

reasonable attorney may decide not to interrupt his opponent’s closing argument. State
v. Campbell, 90 Ohio St.3d 320, 339, 738 N.E.2d 1178 (2000). In addition, Ridder has
failed to demonstrate that, but for these comments and the leading questions, the
outcome would have been different. See Bradley at 142.
ft[22}

'

Since Ridder has failed to show that a Crim.R. 29 motion would have

succeeded, that the admission of the video recording and the failure to object to the
prosecutor’s questions or comments was not sound trial strategy, or that the outcome of
his trial would have been different in any event, he has failed to establish that his counsel
was ineffective. We overrule his third assignment of error.
Sufficiency/Weight
{^23}

Ridder’s fourth assignment of error is that his convictions were based on

insufficient evidence and against the manifest weight of the evidence.

When an

appellant challenges the sufficiency of the evidence, we must determine whether the
state presented adequate evidence on each element of the offense. State u. Thompkins,
78 Ohio St.3d 380, 386, 678 N.E.2d 541 (1997). On the other hand, when reviewing
whether a judgment is against the manifest weight of the evidence, we must determine

entered
8

AUG .03 2016

Ohio First District Court of Appeals
whether the jury clearly lost its way and created a manifest miscarriage of justice. Id. at
387.

ft[24}

S.W.’s testimony was enough to establish the elements of all four rape

counts and the GSI count. She testified that it hurt when he put his finger in her, that
he would “waggle” his finger when it was inside her, and that she knew that he had
put his finger inside her because he had “opened” her and she could feel it. She
described his penis as a “fat noodle” with a hole at the end, and said that he would
“wiggle” it when he put it in her mouth. She said that it tasted “nasty” and that she
would gargle with water afterward to get rid of the taste. As the trial court noted, her
testimony went far beyond what a then seven-year-old girl would have been able to
discuss—even with “coaching.”
tf[25}

And, while S.W. said that the events occurred in Kentucky when

interviewed by Westgate, at trial the state was careful to ask her only about things that
happened in the Delhi home. And, based on the testimony about where the family had
lived on different dates, it was clear that the events that S.W. described had occurred in
Hamilton County, Ohio. The fact that S.W.’s mother was addicted to and actively using
heroin, cocaine, and prescription pain pills, and was a chronic liar does not change this.
And while Ridder points to the fact that there was no physical evidence to establish the
claims, both a doctor from the Mayerson Center and Detective Macaluso testified that
the lack of physical evidence is actually common in this type of case.
fl|26}

The state presented sufficient evidence to prove that, on at least two

occasions, Ridder had digitally penetrated SW.’s vagina or anus, forced S.W. to perform
fellatio on him, engaged in cunnilingus with S.W., and forced S.W. to grab his penis with
her hand. This was sufficient to establish the four counts of rape and one count of GSI of

Sntered
AUG 03 2016
9

Ohio First District Court of Appeals
which he was found guilty. And those guilty findings were not against the manifest
weight of the evidence. We overrule Ridder’s fourth assignment of error.
Ridderwas Properly Sentenced to Life
Without Parole

ft|27}

Finally, Ridder argues that the trial court imposed “excessive consecutive

prison terms without make the requisite Ohio statutory sentencing findings.” We
disagree.
fl[28}

Ridder first argues that the trial court imposed the maximum sentences

on each count without properly considering the purposes and principles of sentencing or
any of the factors set forth in R.C. 2929.11(B) and 2929.12(A)-(E). This courtwill only
modify or vacate a sentence if it clearly and convincingly finds that either the record does
not support the mandatory sentencing findings or the sentence is otherwise contrary to
law. State v. White, 2013-01110-4225,997 N.E.2d 629, H11 (1st Dist.).
{1|29}

The court was not required to make findings or to give reasons for

imposing the maximum term of confinement. See White at U 8 (noting that 2011
Am.Sub.H.B. No. 86, Section 2 repealed statutory provisions requiring findings for
maximum sentences). Nor was the court required to make findings concerning the R.C.
2929.11 felony-sentencing purposes and principles or the 2929.12 seriousness-andrecidivism factors. See State v. Kalish, 120 Ohio St-3d 23, 2008-Ohio-49i2, 896 N.E.2d
\

■

124, H17. And in the absence of an affirmative demonstration by Ridder to the contrary,
we may presume that the court considered those objectives and factors. See id. at fn. 4;
State v. Hendrix, 1st Dist. Hamilton Nos. C-150194 and C-150200, 20i6-Ohio-2697,1
51.
fl|30}

Ridder next argues that the trial court did not comply with R.C.

2929.14(C)(4) when imposing consecutive sentences. But the trii

AUG 03 2016
10

Ohio First District Court of appeals
the sentences to be served consecutively—either during the sentencing hearing or in the
sentencing entry. In fact, the trial court was silent in both places on the issue of whether
the terms were to be served consecutively or concurrently. When a court’s entry is silent
as to whether a consecutive or concurrent term applies, the sentences are to be served
concurrently. See R.C. 2929.41(A).
{f31}

As Ridder has demonstrated no error in the imposition of the sentences

he received in this matter, we overrule his fifth assignment of error.
Conclusion
fl[32}

Having considered and overruled all five of Ridder’s assignments of

error, we affirm the judgment of the trial court
Judgment affirmed.
Cunningham, P.J., and DeWine, J., concur.

Please note:
The court has recorded its own entry on the date of the release of this opinion.

ENTEReTD~
AUG 03 2016

11

Case: l:18-cv-00061-MRB-SKB Doc #: 8 Filed: 06/28/18 Page: 13 of 127 PAG El D #: 62

THE STATE OF OHIO, HAMILTON COUNTY
COURT OF COMMON PLEAS

i. '

Entered

date; 07/23/2015
code: GJEI
. judge: 265

JUL 27 2015

(3
Judge: MEGAN SHANAHAN
NO: B 1306452

STATE OF OHIO
VS.
SAMUEL A RIDDER

JUDGMENT ENTRY: SENTENCE:
INCARCERATION

Defendant was present in open Court with Counsel MASSIMINO M IONNA on the
23rd day of July 2015 for sentence.
The court informed the defendant that, as the defendant well knew, after defendant
entering a plea of not guilty and after trial by jury, the defendant has been found guilty of
the offense(s) of:
count 1: RAPE, 2907-02A1B/ORCN,F1
count 2: RAPE, 2907-02A1B/ORCN,F1
count 3: RAPE, 2907-02A1B/ORCN,F1
f count 4: RAPE, 2907-02A1B/ORCN,FI
count 5: GROSS SEXUAL IMPOSITION, 2907-05A4/ORCN,F3
The Court afforded defendant's counsel an opportunity to speak on behalf of the
defendant. The Court addressed the defendant personally and asked if the defendant
wished to make a statement in the defendant's behalf, or present any information in
mitigation of punishment.
Defendant is sentenced to be imprisoned as follows:
count 1: CONFINEMENT: LIFE DEPARTMENT OF CORRECTIONS
WITHOUT PAROLE
count 2: CONFINEMENT: LIFE DEPARTMENT OF CORRECTIONS
WITHOUT PAROLE
count 3: CONFINEMENT: LIFE DEPARTMENT OF CORRECTIONS
WITHOUT PAROLE
count 4: CONFINEMENT: LIFE DEPARTMENT OF CORRECTIONS
WITHOUT PAROLE
count 5: CONFINEMENT: 18 Mos DEPARTMENT OF CORRECTIONS

•>

THE SENTENCE IN COUNT #5 IS TO BE SERVED CONCURRENTLY WITH
THE SENTENCES IN COUNTS #1, #2, #3 AND #4.
THE DEFENDANT IS TO PAY THE COURT COSTS.

i

EXHIBIT G
D111392959

•—H

EXHIBIT

1

uase: i:i«-cv-uuubi-MKB-bKd Doc #; 8 Filed: 06/28/18 Page: 14 of 127 PAGEID #: 63

; •

THE STATE OF OHIO, HAMILTON COUNTY
COURT OF COMMON PLEAS

. *

date: 07/23/2015
code: GJEI
judge: 265

_____

an. rs

Judge: MEGAN SHANAHAN
NO: B1306452
STATE OF OHIO
VS.
SAMUEL A RIDDER

JUDGMENT ENTRY: SENTENCE:
INCARCERATION

FURTHER, IN ACCORDANCE WITH RC 2901.07, THE DEFENDANT IS
REQUIRED TO SUBMIT A DNA SPECIMEN WHICH WILL BE COLLECTED
AT THE PRISON, JAIL, CORRECTIONAL OR DETENTION FACILITY TO
WHICH THE DEFENDANT HAS BEEN SENTENCED. IF THE SENTENCE
INCLUDES ANY PERIOD OF PROBATION OR COMMUNITY CONTROL, OR
IFj AT ANY TIME THE DEFENDANT IS ON PAROLE, TRANSITIONAL
CONTROL OR POST-RELEASE CONTROL, THE DEFENDANT WILL BE
REQUIRED, AS A CONDITION OF PROBATION, COMMUNITY CONTROL,
PAROLE, TRANSITIONAL CONTROL OR POST-RELEASE CONTROL, TO
SUBMIT A DNA SPECIMEN TO THE PROBATION DEPARTMENT, ADULT
PAROLE AUTHORITY, OR OTHER AUTHORITY AS DESIGNATED BY LAW.
IF THE DEFENDANT FAILS OR REFUSES TO SUBMIT TO THE REQUIRED
DNA SPECIMEN COLLECTION PROCEDURE, THE DEFENDANT WILL BE
SUBJECT TO ARREST AND PUNISHMENT FOR VIOLATING THIS
CONDITION OF PROBATION, COMMUNITY CONTROL, PAROLE,
TRANSITIONAL CONTROL OR POST-RELEASE CONTROL.
THE DEFENDANT IS NOT SUBJECT TO THE POST RELEASE CONTROL
PROVISIONS OF OHIO LAW AS THIS IS A LIFE SENTENCE. PAROLE
ELIGIBILITY FOR THIS OFFENDER IS GOVERNED BY OHIO REVISED
CODE §2967.13(A)(1) AND THE DEFENDANT IS SO ADVISED.

IN THE COURT OF APPEALS

ENTERED
JAN 13 2017

t

FIRST APPELLATE DISTRICT OF OHIO
HAMILTON COUNTY, OHIO
STATE OF OHIO,

APPEAL NO. C-150460

Plaintiff-Appellee,
ENTR Y DENYING
APPLICATIONS FOR
REOPENING.

vs.
SAMUEL RIDDER,
Defendant-Appellant.

We consider this cause upon defendant-appellant Samuel Ridder’s App.R. 26(B)
applications to reopen this appeal.
An application to reopen an appeal must be filed within 90 days of the date on
which the court of appeals journalized its judgment, unless the appellant can show good
cause for applying at a later time. App.R. 26(B)(1) and 26(B)(2)(b). Ridder filed his
applications more than 90 days after we had journalized our judgment in this appeal.
His filing delays are not excused by his limited access to legal resources. See State v.
Witlicki, 74 Ohio St.3d 237, 238, 658 N.E.2d 275 (1996)- Nor is this court free, as
Ridder suggests, to deem his first application filed as of the date when he delivered it to
the prison mailroom. See State ex ret. Tyler u. Alexander, 52 Ohio St-3d 84> 555
N.E.2d 966 (1990).
The Ohio Supreme Court requires intermediate appellate courts to strictly
enforce the 90-day deadline for filing an App.R. 26(B) application. See State v.
Gumm, 103 Ohio St.3d 162, 2004-Ohio-4755, 814 N.E.2d 861; State v. Lamar, 102
Ohio St.3d 467, 2004-OM0-3967, 812 N.E.2d 970. Because Ridder failed to meet
1 mini mi inium mi nm 11m mu ii iieidiihi
APPENDIX H
Dl 16986572

OHIO FIRST DISTRICT COURT OF APPEALS
that deadline or to establish good cause for his filing delays, the court denies his
applications to reopen this appeal. See App.R. 26(B)(1) and 26(B)(2)(b).

To the clerk:

JAN 13 Z017

Enter upon the court’s journal on
\

Presiding Judge

by order of the court.

4

(COPIES SENT TO ALL PARTIES.)

ENTERED
JAN 13 2017
2

?

fr* f? f!
n

i -.

Supreme (Kmrrt uf (©Ijtn

•Wfc'25 20(7
\.‘

£

State of Ohio
v.
Samuel Ridder

$
<<:
s<
&

Case No. 2016-1371

I/
t

ENTRY

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Hamilton County Court of Appeals; No. C-150460)

jluAJUlj.

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/
APPENDIX I

II J/

• . C&Se: 1:18-cV-00061-MRB-SKB: Doc'#: 8 Fifed: 06/28/18' Page: 117 of 127 PAG El D #: 166

‘©fye fBupxtmt OJonri of ©fjto

j

In re Disqualification of Hon. Megan Shanahan

Supreme Court Case No. 18-AP-025
JUDGMENT ENTRY AND DECISION

On Affidavit of Disqualification in State of Ohio v. Samuel A. Kidder,,
Hamilton County Court of Common Pleas, General Division, Case No.
B1306452.Defendant, Samuel Ridder, has filed an affidavit with the clerk of this court pursuant to
R.C. 2701.03 seeking to.disqualify Judge Megan Shanahan from presiding^pver any-further
Gt>
XT
m
proceedings-in the above-captioned case.
? -'.^5
i-

The chiefjustice, however, cannot rule on an affidavit of disqual£fication^herivthere>is no
“proceeding pending before the court.” R.C. 2701.03(A); see also In re Disffyalificgionjof-ffyyes,
CD

CC

135 Ohio St.3d 1221, 2012-0hio-6306, 985 N.E.2d 501, U 6 (“the chiefjustice caMot rule on an
affidavit of disqualification when * *. * nothing is pending before the trial court”). Here, Mr.
Ridder has failed to identify any matter currently pending in his 2014 criminal case, and the docket
reveals that Judge Shanahan decided the defendant’s most recent post-trial motion in December
2016. Because Mr. Ridder has failed to identify any matter presently pending before the judge he
seeks to disqualify, there is no basis to order Judge Shanahan’s removal under R.C. 2701.03. See
In re Disqualification ofHorton, 137Ohio St.3d 1236, 20!3-Ohio-5761, 1 N.E.3d4!3.
The affidavit of disqualification is denied.
APPENDIX J
DI2U74209
's.

1

^npxtxm Court of OMjto
OFFICE OF THE CLERK
65 South Front Street, Columbus, OH 43215-3431
Chief Justice

Clerk of the Court
Sandra H. Grosko

Maureen O'Connor

Justices
Terrence O'Donnell
Sharon L. Kennedy
Judith L. French
William M. O'Neill
Patrick F. Fischer
R. Patrick DeWine

Telephone 614.387.9530
Facsimile 614.387.9539
www.supremecourtohio.gov

August 28, 2017

Samuel Ridder #717-644
Warren Correctional Institution
P.O.Box 120
Lebanon, OH 45036
Dear Mr. Ridder:
The enclosed documents were not filed because they do not comply with the Rules of Practice of
the Supreme Court of Ohio. Specifically, a date-stamped copy of the court of appeals1 opinion
and the judgment entry being appealed is not attached to your motion for delayed appeal as
required by Rule 7.01(A)(4)(a)(iii).
Please note, the provision for delayed appeal under Rule 7.01(A)(4) does not apply to appeals
involving postconviction relief or appeals brought pursuant to App R. 26(B). The clerk’s office
is required by Rule 7.01(A)(4)(c) to refuse to file such motions for delayed appeal. Please also
note that Rule 3.03(B)(1) prohibits the clerk’s office from filing requests for extension of time
except for those provided in Rule 3.03(B)(2).
As long as the provision for delayed appeal applies to your case, once you make the correction
listed above, you may resubmit your documents for filing. For further guidance, please refer to
the copy of the Rules of Practice on file with your institution’s library.
Sincerely,
Clerk’s Office
Enclosures

APPENDIX K

